<html>
<title> - EFFECTIVE FAITH-BASED TREATMENT PROGRAMS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                EFFECTIVE FAITH-BASED TREATMENT PROGRAMS
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                              MAY 23, 2001
                               __________

                           Serial No. 107-48
                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                        U.S. GOVERNMENT PRINTING OFFICE
77-709                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                     COMMITTEE ON GOVERNMENT REFORM


                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chris Donesa, Staff Director
                       Sharon Pinkerton, Counsel
                          Conn Carroll, Clerk
           Denise Wilson, Minority Professional Staff Member













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2001.....................................     1
Statement of:
    Castellani, John, executive director, Teen Challenge 
      International; Ron Frederick, graduate, Teen Challenge 
      International; Pastor Roosevelt Sanders, Mission Baptist 
      Church, Indianapolis, IN; Sara Trollinger, president and 
      founder, House of Hope, Orlando, FL; and Reverend Horace 
      Smith, Group Ministries Baltimore, Inc., Baltimore, MD.....    10
Letters, statements, etc., submitted for the record by:
    Castellani, John, executive director, Teen Challenge 
      International, prepared statement of.......................    12
    Sanders, Pastor Roosevelt, Mission Baptist Church, 
      Indianapolis, IN, prepared statement of....................    17
    Smith, Reverend Horace, Group Ministries Baltimore, Inc., 
      Baltimore, MD, prepared statement of.......................    35
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3
    Trollinger, Sara, president and founder, House of Hope, 
      Orlando, FL, prepared statement of.........................    23













                EFFECTIVE FAITH-BASED TREATMENT PROGRAMS

                              ----------                              


                        WEDNESDAY, MAY 23, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Mr. Davis of 
Illinois, Carson, Mica, Weldon, and Gilman.
    Staff present: Chris Donesa, staff director; Conn Carroll, 
clerk; Tony Haywood, minority counsel; Denise Wilson, minority 
professional staff member; Lorran Garrison, minority staff 
assistant; and Peter Anthony, intern.
    Mr. Souder. The subcommittee will come to order.
    We're going to do our opening statements, and then we'll 
introduce each of the witnesses.
    Good morning, and thank you all for coming.
    Today's hearing combines two issues that are critical to 
the subcommittee's mission for the 107th Congress: ensuring 
Government support for effective programs to reduce the demand 
for illegal drugs, and facilitating the inclusion of faith-
based providers in the delivery of social services.
    Two weeks ago, President Bush remarked that family schools, 
communities, and faith-based organizations shape the character 
of young people. They teach children right from wrong, respect 
for law, respect for others, and respect for themselves. I 
agree. And, as I have stated many times in the past, we cannot 
tackle the problems of drug abuse and the concurrent social 
problems crime costs our country without an approach that 
simultaneously addresses prevention, education, treatment, 
enforcement, interdiction, and eradication.
    Prevention and treatment programs rightly occupy a 
substantial portion of our Federal drug control budget, almost 
twice as much as interdiction and international programs. Even 
so, our Nation must continue to increase our focus on 
education, prevention, and building effective community 
coalitions to prevent drug abuse.
    The Federal budget for treatment, alone, has grown 35 
percent to more than $3 billion since 1996, and prevention and 
education funds have grown 52 percent. While we have 
dramatically increased spending, many questions relating to 
effectiveness of programs and results remain.
    The subcommittee this year will undertake a comprehensive 
effort to address these issues, and we support President Bush's 
efforts to do the same for existing programs in the executive 
branch.
    One area which has shown promise is faith-based treatment 
programs such as those run by Freddie Garcia in Texas, where I 
visited several times, and the witnesses who are before us 
today. The faith community has achieved results in some ways 
which other programs have not, and our goal today is to hear 
from them about their approach and what works and why it works.
    The President has identified these programs as a priority 
and has asked Professor Dejulio to compile a complete inventory 
of existing faith-based partnerships for the purpose of 
strengthening these efforts by early June. We look forward to 
the findings of that inventory.
    We have many issues to examine today, and I look forward to 
hearing from our witnesses about their experiences with faith-
based programs. We need to know how the unique element of faith 
impacts the structure and success of these programs. We need to 
know how spirituality works to build self-esteem and self-
confidence in those who are in psychological and psychological 
need and doubt.
    Substance abuse imposes staggering costs on individuals, 
families, businesses, and schools. We in Congress need to 
support and encourage programs that work, and we are here today 
to do that by learning directly from providers who work with 
these issues every day.
    From Teen Challenge International we have Executive 
Director John Castellani and Ron Frederick, a program graduate; 
from the Mission Baptist Church in Indianapolis we have Pastor 
Roosevelt Sanders; from the House of Hope in Orlando joining us 
is Sara Trollinger, its president and founder; and from Group 
Ministries Baltimore, president and CEO Reverend Horace Smith 
will testify.
    Thank you all for coming and for your commitment to your 
communities and neighbors. We look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] T7709.001
    
    [GRAPHIC] [TIFF OMITTED] T7709.002
    
    [GRAPHIC] [TIFF OMITTED] T7709.003
    
    Mr. Souder. I now recognize the ranking member, Mr. 
Cummings, for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today the subcommittee begins its second oversight hearing 
into faith-based initiatives. The focus of our hearing today is 
the effectiveness of faith-based drug treatment programs. I 
want to begin by commending Chairman Souder for scheduling 
hearings on faith-based initiatives. This is a very serious 
issue, and I am pleased that the subcommittee will be devoting 
significant time to it.
    I agree with many that there is a pressing need for 
congressional examination of this issue, and I want to thank 
the chairman for beginning the oversight process.
    Today we are addressing the issue of whether faith-based 
drug treatment programs are more effective than Federal 
programs, and whether faith-based drug treatment programs are 
less costly than Federal programs.
    We do not yet know how effective faith-based organizations 
are, in general, and in particular we do not know how effective 
faith-based drug treatments are. And, in spite of the fact that 
faith-based charitable choice provisions have been in Federal 
law since 1996, we have no information on how these programs 
work.
    With regard to faith-based drug treatment programs, the 
General Accounting Office, in a 1998 report entitled, ``Drug 
Abuse: Studies Show Treatment, its Effect, but Benefits May Be 
Overstated,'' revealed that faith-based strategies have yet to 
be rigorously examined by the research community.
    Last year the National Institutes of Health and the 
National Institute on Drug Abuse, in response to an inquiry 
from the National Association of Alcoholism and Drug Abuse 
Counselors wrote, ``Although there are a number of studies 
emerging that faith or religiosity may serve as a protective 
factor against initial drug use, there is not enough research 
in the treatment portfolio for NIDA to make any valid 
conclusive statements about the role that faith plays in drug 
addiction treatment. How can we respond to claims that faith 
cures drug abuse in the absence of any real documentation and 
research?''
    That was just the question I posed to GAO and why last 
month I wrote to the agency asking that they study the role and 
effectiveness of faith-based organizations in providing 
federally funded social services.
    If Congress and the President are going to expand the role 
of faith-based organizations in fulfilling Federal mandates via 
charitable choice, we must have a basis for assessing how these 
organizations have performed.
    Mr. Chairman, I am well aware of the devastation caused by 
drugs and alcohol abuse and addiction, and I am well aware of 
the drug treatment services and counseling offered by churches 
and other religious organizations. As the son of two ministers, 
I recognize the role that faith and spirituality can play in 
helping to treat a person suffering from drug addiction; 
however, make no mistake about it, drug addiction is an 
illness, and as an illness it requires medical and 
psychological attention.
    Treating drug/alcohol addition and abuse is not about 
saving souls; it is about treating a disease. It is not about 
using Federal funds to proselytize; it is about providing 
trained and licensed addiction counselors, professionals, to 
assess an individual's needs and the methods of treatment. It 
is not about relaxing State licensing and certification 
standards for substance abuse counselors; it is about ensuring 
that our poorest and least-served receive the best treatment 
available as they struggle to overcome a devastating disease. 
In their time of need they deserve and we must demand 
accountability in the provision of drug treatment services.
    Drug addiction treatment demands quality resources and 
effective treatment. It should not be used as a testing ground 
for unproven methods or unlicensed professionals. We must never 
lose sight of the fact that Federal funding of drug treatment 
services is a public service, one available to every person 
everywhere. As a result, public health services must never be 
placed in the position of competing for Federal funds.
    In treating drug addiction, integrity, accountability, and 
responsibility must be part of any treatment package. To that 
end, I would like to submit for the record a letter sent to 
Members of Congress last month by the Association of Addiction 
Professionals addressing charitable choice.
    Finally, Mr. Chairman, I would like to recognize Reverend 
Horace Smith, who has dedicated his life to uplifting the lives 
of those who have fallen because of drug addiction. He is a 
member of my church, the New Summits Baptist Church in 
Baltimore, and he is one who has consistently been on the 
battleground trying to address this issue, and doing it very 
effectively as the president and CEO of Group Ministries 
Baltimore. He is from my congressional District, and I am 
pleased that he is with us today.
    I want to thank all of our witnesses for being with us. It 
is very important that we have your testimony. As I've often 
said, we are the ones that have to create the laws so that the 
people can best be served, but, in the words of Martin Luther 
King, Sr., we cannot lead where we do not go, and we cannot 
teach what we do not know. And so we are very, very pleased to 
have you and we know that you will contribute tremendously to 
our efforts to come up with the best solutions to the problems 
that we are attempting to address.
    Mr. Souder. Thank you.
    I now yield to Congressman Davis, a distinguished member of 
the committee.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
have just a brief comment in terms of taking the opportunity to 
thank you for holding this hearing.
    I also want to welcome all of those who have come to 
testify. I think the subject that we are dealing with is 
probably one of the most important ones that we will discuss 
during this Congress, because what we're really trying to do is 
rationalize an approach to finding solutions to some of the 
major problems that exist in American society, and, while I 
have some reservations about some things--as a matter of fact, 
the philosopher Schopenhauer probably represents my thinking 
about most things, and he said he doubted a little bit of 
everything. The only thing that he didn't doubt was the fact 
that he doubted.
    I think there are some holes and gaps in everything that we 
attempt to do and everything that we approach, but I also like 
the definition of faith that I've come to accept, and that is 
that it is, indeed, the substance of things hoped for and 
evidence of those things yet to come. And so there are some 
things that we end up just kind of feeling, just kind of 
knowing, just kind of seeing.
    I'm certainly interested in finding out the experiences of 
the witnesses. I have no doubt in my mind about some 
effectiveness of faith-based initiatives and programs. As a 
matter of fact, I've seen them at work. I've been around faith 
all of my life. Everything that I've seen people accomplish 
basically has been as a result of a tremendous amount of faith, 
and oftentimes those things seemed impossible but they did it 
anyway. They made it happen.
    I grew up in rural America where people built large 
churches, and I often wondered how they could do it with the 
low money that they had, but generally they would bring it 
together, mix it up, hold on to it, and keep building.
    I look forward to the testimony and thank you again, Mr. 
Chairman, for holding this hearing.
    Mr. Souder. Thank you.
    We have been joined by Congresswoman Julia Carson, a fellow 
Hoosier, long-term legislator from Indianapolis who now 
represents the city of Indianapolis, and she'd like to give a 
special welcome to a constituent of hers.
    Ms. Carson. Thank you very much, Mr. Chairman Souder, and 
certainly to the ranking member, the Honorable Elijah Cummings 
and the Hon. Danny Davis from Chicago, and all of those who are 
gathered together in one place in one accord, and certainly 
that is to understand this whole effort in terms of faith-based 
and drug addiction.
    We know that the majority of our prisoners across the 
country are in prison because of drug addiction, drug activity, 
and it is reminiscent of the teachings of Christ that said, 
``When I was in prison, did you come?``
    It is my pleasure, with a great deal of humility--and I'm 
so happy that the chairman allowed me to come and sit up here 
with the big boys this morning. I'm not on this committee. But 
when you have a distinguished gentleman from my District, I 
want to get in the middle of it.
    The Honorable Minister Doctor Roosevelt Sanders is a pastor 
of the Mount Vernon Missionary Baptist Church, which I'm very 
proud to say is located in my congressional District out in 
Indianapolis, IN, and he is a young man whose father preceded 
him as pastor of that church. His father was one of Dr. Leon 
Sullivan's proteges and created the opportunities and the 
centers and just did a great work. He emulated the life of 
Christ, where he was letting his light so shine by his good 
works so that hopefully they are now emulated in Heaven where 
his father has preceded him to.
    Review Sanders was called to pastor the Mount Vernon 
Missionary Baptist Church after his father departed on for 
greater things, and that was to sit around the throne. But 
Reverend Sanders has been engaged in community work a long 
time. He is not confining his message to a Sunday morning 
sermon. He is working in the vineyard, and he has been dealing 
in a very effective way with those who find themselves addicted 
to drugs, and he has successfully, in a very positive way, even 
before I heard of faith-based support from the Government, 
Reverend Sanders has been working in the vineyard in a very 
positive way, assisting people who find themselves confronted 
with the devil some oftentimes call ``drugs.''
    It is my esteemed pleasure to be able to be here for a 
moment with him this morning to welcome him to the Nation's 
Capital and know that the Nation's Capital will never be the 
same once Dr. Sanders has left his very important message here 
before this committee.
    Thank you again, Mr. Chairman.
    Let me close by saying that I had the privilege of visiting 
Representative Cummings District and the Johns Hopkins Hospital 
before I heard of faith-based, and they have a system there, 
treatment on demand, which works its way in a very positive 
way, and I just wanted to add those accolades to Congressman 
Cummings for allowing us to come and see what does work in 
terms of drug addiction.
    Thank you so very much, Mr. Chairman. I appreciate your 
letting me sit up here with the big boys and welcome Reverend 
Sanders and the other panelists that are here.
    Mr. Davis of Illinois. Did you lure him back or did you 
steal him from Chicago?
    Ms. Carson. No comment. That would violate Scripture about 
stealing.
    Mr. Souder. I thank you all for your statements.
    Before proceeding further, I would like to take care of a 
couple of procedural matters.
    First, I would ask unanimous consent that all Members have 
5 legislative days to submit written statements, including the 
one that earlier came from Congressman Cummings he wanted to 
insert, and questions for the hearing record, and that any 
answers to written questions provided by the witnesses also be 
included in the record.
    Without objection, so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and the 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    As an oversight committee, it is our standard practice to 
ask all our witnesses to testify under oath, so if the 
witnesses will now rise, raise your right hands, I'll 
administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have all 
answered in the affirmative.
    I will now recognize the witnesses for their opening 
statements, and I would like to thank all of you again for 
being here today. We will ask our witnesses to limit their 
opening statements to 5 minutes. We'll include any further 
remarks you have and any fuller statements in the record, and 
then give you additional time after the questioning.
    We start today with Mr. Castellani, and you have an opening 
statement.

    STATEMENTS OF JOHN CASTELLANI, EXECUTIVE DIRECTOR, TEEN 
    CHALLENGE INTERNATIONAL; RON FREDERICK, GRADUATE, TEEN 
  CHALLENGE INTERNATIONAL; PASTOR ROOSEVELT SANDERS, MISSION 
 BAPTIST CHURCH, INDIANAPOLIS, IN; SARA TROLLINGER, PRESIDENT 
 AND FOUNDER, HOUSE OF HOPE, ORLANDO, FL; AND REVEREND HORACE 
     SMITH, GROUP MINISTRIES BALTIMORE, INC., BALTIMORE, MD

    Mr. Castellani. Congressman Souder and committee, thank you 
for the privilege of being here to share in the ministry of 
teen challenge and its outreach that has taken place for over 
40-plus years. I'd just like to read a few statements that I 
have written.
    Our mission statement is to provide youth, adults, and 
families with an effective and comprehensive faith-based 
solution to life-controlling drug and alcohol addiction.
    Our history goes back to 1958. Teen Challenge International 
began fighting addiction in the gang-infested streets of 
Brooklyn, NY, and our founder at that time, who is no longer a 
part of Teen Challenge, but the founder at that time was David 
Wilkerson. Today, Teen Challenge International has 150 centers 
throughout the United States and 185 centers in 65 different 
countries around the world.
    Our scope--because the present drug epidemic affects all 
segments of society, Teen Challenge reaches out to people from 
all backgrounds, especially the urban poor, women, and ethnic 
minorities. In addition to providing acute care, 1-year 
residency program--and, by the way, this is basically--Teen 
Challenge is, for the most part, a 1-year residency program for 
desperate cases. Teen Challenge also offers a wide range of 
outpatient and prevention services.
    On Sunday morning we are probably in 150-plus churches on 
any given Sunday doing a prevention program in a Sunday School 
class, the auditorium, or wherever it may be. And then we also 
are in many other schools throughout the week.
    Such a holistic approach to treating drug addiction, 
educational programs for children, this is another program that 
we are developing in the inner cities, specifically, and this 
is tutorial programs for after-school children and helping them 
with their basic needs in these areas.
    Another significant service is aimed at particular needs--
leadership and staff and volunteers. Teen Challenge utilizes a 
decentralized approach. Every center is autonomous. That 
encourages the treatment and rehabilitation centers to tailor 
programs to the needs of their local area.
    And I want to add here that we have our own accreditation 
system that we use within the ministry of Teen Challenge, and 
that is an 80-point system. Some of the States--at least one 
State--has adopted our 80 points and allowed us to operate 
under their State rulings. Right now we have given our 80-point 
structure to the Office of ONDCP, who is looking at it and 
critiquing it and seeing how we may fit into various areas of 
their thinking, as well.
    In support of this approach, Teen Challenge International 
provides leadership training. We have support systems within 
our system where we not only help them with their drug 
addiction, but if an individual comes to us and does not have 
their GED or a high school diploma, we work feverishly to get 
this accomplished.
    I'm happy to report that at the one center that I have been 
privileged to be the director of for 13 years in Pennsylvania, 
if a person comes to us with a fifth-grade reading level, 
within 6 to 8 months we can graduate him with his complete GED, 
and right now we have better than a 90 percent graduation ratio 
of those who have this need, and we are very grateful for this, 
because we feel it is not only good to help an individual 
better their life and change their lifestyle, but we need to 
better prepare them so they can go forth and make a healthy 
living in their field of service.
    We also have contact with one particular vo-tech college in 
the State of Pennsylvania, Stevens Vo-Tech College in Lancaster 
County, where many of our graduates go there for a 2-year 
education in vo-tech, and I was privileged to be there just a 
couple weeks ago and see three of our students graduate.
    We have systems of support and we have a definite financial 
accountability. We feel this is very important to running any 
ministry, program, or whatever it may be. The majority of 
operating funds is raised by the Teen Challenge centers from 
churches, community organizations, and businesses, and 
individual people in their areas. Thousands of volunteers, 
largely from local churches, contribute valuable time and 
skills, thus making it possible for Teen Challenge centers to 
operate with an extremely low overhead, for which we are 
grateful because we are a faith-based program from beginning 
until this present day, and probably will always be faith-
based. Wherever funds come from, one must have faith to 
initiate the work God has called them to.
    I want to thank you for that privilege of being here today, 
just sharing what we feel is a good program, along with many 
other good programs that are across our Nation helping those in 
need.
    Thank you.
    [The prepared statement of Mr. Castellani follows:]
    [GRAPHIC] [TIFF OMITTED] T7709.004
    
    Mr. Souder. We may have this in our system, but if you 
could give us the most updated list of where the 150 centers 
are in the United States, and also the 185 in the 65 countries, 
and also the 80-point system.
    Mr. Castellani. I can get that to you. Yes.
    Mr. Souder. Thank you.
    Mr. Castellani. I don't have it with me----
    Mr. Souder. That's fine.
    Mr. Castellani [continuing]. But I can get it to you.
    Mr. Souder. That's fine. We have a number of days so we can 
have it in the record, and also for our files.
    Mr. Castellani. Thank you.
    Mr. Souder. We are now joined by Ron Frederick, a graduate 
from Teen Challenge International.
    Mr. Frederick. Well, as you can see, I'm not a teenager. 
It's a couple of years off, but that's OK.
    I never dreamed in my wildest dreams that I'd ever be 
sitting here addressing a subcommittee. I'm extremely honored, 
Mr. Chairman and Mr. Cummings and Mr. Davis, to be here, and I 
am extremely nervous, so bear with me.
    I graduated Teen Challenge in September 1991, and since 
then my life has really took--well, it just took off. I was 
originally from Brooklyn, NY. That's where my addiction was. I 
spent most of my life in Brooklyn on drugs, 25 years of it. The 
last 5 I spent homeless, living in the streets of Brooklyn. I 
would collect cans and bottles and scrap metal to supply myself 
with drugs.
    And I had been through many other programs, not to name 
them, but I had been through many other programs, short-term 
programs, some long-term programs, and none of them seemed to 
have any effect.
    My family were all raised in church. We were all spiritual. 
And I knew in my heart where I needed--what I needed to do, but 
I didn't want to go that way because I knew I had to give up 
too much. I had nothing to give up, but I just didn't want to 
go that route.
    One day I went to my sister's house, who was my baby 
sister, and I was hungry, and I asked if I could get something 
to eat, and she said yes, but I'd have to wait across the 
street, so I said, ``Sure, why not.`` So I crossed the street, 
and a few minutes later she comes out with a plate of food and 
she walks out her gate and sits the plate on the curb, and she 
turns around and walks inside. This is my baby sister, whom I 
love dearly, and here she is so ashamed of me that she didn't 
want anyone to even know that she knew me.
    When I walked across the street and the memories that 
flooded my mind was overwhelming at the time. All I could think 
about was how my life used to be.
    But I picked up the food and I began to eat it and I cried 
and my tears were basically seasoning the food, and when I 
finished I looked around at my sister's house, and she was also 
sitting in the window crying, looking at me. That is when I 
knew that I needed help. That is when I knew that I needed to 
go back to my spiritual roots.
    So I entered a program called ``Teen Challenge.'' It has 
been almost 10 years now. In September it will be 10 years that 
I graduated. Since then, I have lost three members of my 
family. Well, I didn't lose them. All of them were saved by the 
grace of God, so I know where they are, but they died. All of 
them were my running mates in drugs. I lost one last year in 
October, one in November, and one in December, and it was 
really a hard time to deal with, and I asked God many times why 
didn't he take me also, but I guess he has work for me to do.
    But since graduating Teen Challenge in 1991, in 1993 I met 
a wonderful young lady. Her name was John-Ann, and we were 
married in 1994. In 1995 we adopted my son. His name is James. 
It is amazing to think of that--that I was able to adopt a 
son--I mean, me, a homeless bum from Brooklyn, actually 
adopting a child. That blew my mind right there.
    And since then I have been promoted to industrial 
supervisor at Teen Challenge. I run all the industrial shops, 
and it is a challenging job. Teen Challenge has sent me to 
school. I attend Reading Area Community College, studying for 
my associate's degree in business management. I am also taking 
a home study course called ``Berean,'' which is theological 
studies. I'm taking that, also.
    I don't think that I would have been able to accomplish any 
of these things if it had not been for the grace of God, and 
for the fact that I did return to my spiritual roots where I 
belong.
    I am extremely prejudiced toward faith-based ministries. I 
know that they work. I am a living testimony as to the proof 
that they work. Many of my brothers--two of my brothers behind 
me, they also went through Teen Challenge. I have two sisters 
that also went through Teen Challenge and one nephew. I was the 
beginning, and God not only saved me but he saved the rest of 
my family that was strung out on drugs through this program, 
Teen Challenge.
    I thank God for giving me a chance to come here and testify 
before you. It is an honor and a privilege. I just thank you 
and I appreciate it.
    Mr. Souder. Thank you very much. You can certainly thank 
God for giving you the power to speak from the heart this 
morning, because it is people like you who have overcome these 
struggles that can motivate and move many of us to understand 
the difficulties. I appreciate your taking the time to come and 
the courage to speak and the eloquence with which you spoke. 
God, again, came to your assistance.
    Whatever your background is, you certainly hit our hearts. 
Thank you very much.
    Pastor Sanders, it is a great honor to have you here. I'm 
glad you could make it in.
    He battled through all kinds of storms. I don't know 
whether the Devil was trying to hold you up or it was just bad 
weather, but, anyway, we got you here this morning and we 
appreciate and look forward to your testimony.
    Reverend Sanders. I thank you, Chairman Souder, and to the 
other distinguished members of this subcommittee, as well.
    I believe that in every era the church of the living God 
has a responsibility to prayerfully contemplate the times in 
which we live, carefully scrutinize the neighborhoods where we 
are located to identify the pressing needs and perils of the 
hour and then develop and implement programs that will address 
those critical problems.
    As a street man redeemed, when I assumed the pastorate of 
the church that my late father pastored for nearly 30 years, it 
didn't take long for me to realize that one of the crucial 
dilemmas facing the Hallville community was substance abuse. My 
understanding of this problem is not theoretical, it's 
experiential. I know from personal experience what it is like 
to want to be drug-free while others are convinced that you are 
not trying hard enough. I know what it is like to wear long-
sleeved shirts in 90-degree weather because you're ashamed of 
the tracks on your arms. I know what it is like to work 40 
hours and get a paycheck and watch it all go up in smoke in 
less than 4 hours. I know what it is like to observe, admire, 
and at the same time envy clean and sober people as they move 
to and fro in the crossroads of human commerce while you're 
wishing that you could be one of them. I know what it is like 
to be in desperate need of help and can't get it when you want 
it.
    Gradually, I began to realize that members of our 
congregation were either dependent on drugs or depressed 
because some of their family members were. Driven by a sense of 
urgency, I developed an alcohol and substance abuse support 
group within the church and then God began placing individuals 
and institutions in our lives who were willing to help us in 
our efforts to assist others. That reinforced my conviction 
that when you commit yourself to doing something great for God 
as it relates to helping less-fortunate people, he provides the 
manpower, the money, and the resources.
    In February 1998, after we had been assisted by Fairbanks 
Alcohol and Drug Abuse Treatment Center, they came in and they 
helped us to train people by conducting seminars and workshops. 
They trained recovering members in our congregation and others 
who wanted to be a part of the solution.
    In February 1998 we opened the doors and began the opening 
phase of the Mount Vernon Alcohol and Drug Relapse Prevention 
Center in a neighborhood building purchased by the church and 
rehabilitated with funding that we accessed through former 
Mayor Steve Goldsmith's front porch alliance program--a program 
that brought together government and faith-based organizations 
with a common agenda to help to alleviate some of the suffering 
and pain in our community.
    We realized that it was senseless to restore and revitalize 
buildings without rebuilding the lives of the people who live 
in those neighborhoods.
    Everyone can't afford to go to a treatment center 
comparable to the Betty Ford Clinic. Just as rich, famous, 
powerful, and influential people need help with this disease, 
the poor and indigent, the obscure and powerless need help, 
also.
    Necessity and a keen sense of our Christian as well as our 
American duty compelled us to get involved. You don't have to 
be a nuclear physicist to understand that drugs are an epidemic 
in America, and it is becoming more and more contagious.
    Drugs are not just my problem. Drugs are not simply this 
panel's problem. It is America's problem. And we understand 
that many people who achieve sobriety don't have the social and 
attitudinal skills to remain drug free. We may not be able to 
stop the stem of drugs, the flow of drugs into America, but we 
can help people by providing them with the skills necessary to 
remain drug free and helping them to realize that it takes 
courage to face life and all of its dilemmas with a sober mind.
    When I was still using drugs, one morning or one evening I 
was awakened from a drug-induced stupor and I heard a program, 
a documentary, and it featured a man by the name of Mortimer 
Adler. I've come to realize since that we all have the capacity 
to commit to memory those things which are pertinent to our 
existence. And I heard Mortimer Adler state that in a truly 
democratic society the people do for the people what the people 
cannot do for themselves.
    Chairman Souder and this committee, I want to thank you for 
giving me an opportunity to speak on behalf of the scores and 
scores of our fellow Americans who are not asking for a 
handout, simply a hand up from their Government by the people 
and for the people.
    Thank you.
    Mr. Souder. Thank you very much, and for your work.
    [The prepared statement of Reverend Sanders follows:]
    [GRAPHIC] [TIFF OMITTED] T7709.005
    
    [GRAPHIC] [TIFF OMITTED] T7709.006
    
    [GRAPHIC] [TIFF OMITTED] T7709.007
    
    Mr. Souder. I'm going to have Congressman Mica introduce 
our next witness.
    Mr. Mica. Thank you.
    Mr. Chairman and members of the subcommittee, I am pleased 
and delighted today to introduce to the subcommittee, also to 
Members of Congress and guests assembled Sara Trollinger. Sara 
Trollinger is the founder and president of the House of Hope. 
It is not located in my District, but in the general area that 
I've had the honor to serve both in the legislature and now in 
Congress.
    Some of us may or may not believe in angels, but if there 
is such a thing as an angel that has come down to Earth it is 
certainly Sara Trollinger who qualifies. She is the founder and 
really the inspiration behind House of Hope, which started, I 
believe, back in the mid-1980's. And they took in the most 
difficult at that time young ladies who had been subject of the 
most horrible types of abuse, physical and sexual, and also 
victims of drug abuse. That's one of the most incredible 
records.
    Her work has been recognized by President Reagan, who 
visited there when he was President, and also even made a 
personal financial contribution toward the program, because he 
was so inspired by the work, and many others have recognized 
this model that Sara has created, which has been replicated 
beyond our local region and now includes not only young women 
but young men.
    I have often heard the stories of the young people who were 
addicted to crack and heroin and subject to, again, horrible 
abuse and just left by the wayside in our society, and she 
truly has been an angel to pick them up.
    I thank you for those comments. I didn't have an opening 
statement. I thank you for also holding this hearing today and 
thank you for the opportunity to introduce someone very special 
to me, Sara Trollinger with the House of Hope from central 
Florida.
    Mr. Souder. Thank you.
    Ms. Trollinger. Thank you, Congressman Mica.
    I am honored and blessed to be here today with all of you 
distinguished Congressmen and invited guests.
    I taught public school for 30 years in the Orange County 
schools, and with a master's degree, working with disturbed 
teenagers. I taught behind bars in juvenile detention center, 
so I had first-hand information on the limited success of 
secular programs.
    Teaching troubled teens was like a revolving door. The same 
ones would come and go without any lasting help because we 
weren't allowed to mention Jesus Christ and teach Christian 
principles.
    Sixteen years ago, after years of frustration, I founded 
House of Hope for hurting teenagers, with five of us praying 
and $200. God impressed me that if the heart wasn't changed and 
healed and if the parents were not an integral part of the 
program, we would not see lasting results of families being 
healed and restored.
    We are dealing with desperate teens, ages 13 to 18, from 
every socioeconomic level who have all been looking for love in 
all the wrong places. Many have been in as many as seven 
secular programs when they come to us, where they go and dry 
out or detox, yet they are left with an empty shell and soon 
that void is filled again with drugs and alcohol, violence, and 
a multitude of other addictive behaviors, but that's where 
House of Hope steps in. We fill that empty shell with love and 
education and discipline and trust. We work from the inside out 
building character and teaching values. We are a holistic 
program that treats the whole person--body, mind, and spirit.
    The effectiveness of House of Hope's faith-based drug 
treatment program is seen when we evaluate the advantages, 
which the big one is the whole family is involved. Our program 
is--we accept any race, creed, or color. We are free to teach 
principles that are based on the Bible, that build character 
and develop their identity so they can fulfill their destiny.
    As he said, President Reagan visited us in 1990. He had 
read an article about us in 1985 when we first started, and 
that's when he sent the first check. Anyway, when he came he 
said, ``There needs to be a House of Hope in every major city 
across the Nation, because Government programs do not work.''
    Most secular treatments last 21 to 90 days, but House of 
Hope is a residential program and lasts from 8 months to a 
year-and-a-half, depending on the seriousness.
    No teenager, no matter how serious a drug problem, has ever 
suffered without withdrawals, but through love and counseling 
and prayer they go off drugs cold turkey, without exception.
    We have a 95 percent success rate of restoring these 
teenagers back home to their families. We provide 
individualized education at Hope Academy, which is our school 
program on campus, and most all the teenagers that come are 
scholastically behind because of truancy, and most of them are 
dropouts, but our well-equipped and trained teachers are 
dedicated to helping the teens succeed, and in a short time 
they catch up and even exceed their grade level.
    Our counselors, professional and pastoral counselors, teach 
them how to make positive choices, how to deal with bad 
attitudes, inappropriate behavior, hurts from the past, and 
they understand that forgiveness is the big key to their 
recovery.
    In House of Hope the whole family is involved. Parents are 
equipped through one-on-one counseling and a mandatory weekly 
parenting class to prepare them for successful restoration.
    House of Hope is fulfilling the last verse of the Old 
Testament--turning the hearts of the fathers and mothers to the 
children and the hearts of the children back to the fathers and 
mothers, less there be a curse on our land. House of Hope is 
stopping curses. House of Hope Orlando is a national model for 
training seminars across the Nation. Twenty-seven programs have 
patterned after us.
    After graduation, our teens are held accountable through 
counseling, after-care programs, and annual reunions. Many of 
our past graduates are currently on staff.
    Our challenge is to mold our teenagers into solid citizens 
and our leaders of tomorrow, so our challenge is to help all 
these teens who have suffered these severe problems, who have 
been involved in abuse and all kinds of drugs, and even in the 
occult. And most of them have even tried to end their life 
through suicide.
    But we are an integral part of President Bush's army of 
compassion, strengthening families and rescuing our Nation's 
youth with unmatched success.
    The most powerful part of my presentation are the randomly 
selected testimonies that are included in your packet that I 
don't have time to read those right now, but I want to say that 
the streets and institutions don't tuck them in at night, but 
we do at House of Hope.
    House of Hope is a model. We have the answers. We are 
effective. We make a difference. And we cause lasting change.
    Thank you so much.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Trollinger follows:]
    [GRAPHIC] [TIFF OMITTED] T7709.008
    
    [GRAPHIC] [TIFF OMITTED] T7709.009
    
    [GRAPHIC] [TIFF OMITTED] T7709.010
    
    [GRAPHIC] [TIFF OMITTED] T7709.011
    
    [GRAPHIC] [TIFF OMITTED] T7709.012
    
    [GRAPHIC] [TIFF OMITTED] T7709.013
    
    [GRAPHIC] [TIFF OMITTED] T7709.014
    
    [GRAPHIC] [TIFF OMITTED] T7709.015
    
    [GRAPHIC] [TIFF OMITTED] T7709.016
    
    Mr. Souder. If you could also provide for the record the 27 
areas where you are across the Nation, we'll certainly insert 
in the individual testimonies and also just assume that any of 
the rest of you who want to insert individual testimonies or 
some information about your organization would be appreciated.
    Reverend Smith, we are glad to have you be the cleanup 
speaker here.
    Reverend Smith. First of all, I would like to thank you, 
Chairman Souder, for inviting me, and I thank you very much for 
an opportunity, and I thank my Congressman, Congressman 
Cummings, who sits on about the fourth row on the left each and 
every Sunday, and it is certainly powerful to see Congressman 
Cummings whenever he comes to church, which is regularly. Thank 
you. Amen. And we do have a fine pastor, Dr. Thomas.
    Myself, too, I have--for a number of years I was a 
substance abuser. I was a heroin addict for over 20 years of my 
life. I have been clean now for over 15 years. Been there. Done 
that. And it was a life of some bad choices, decisions. It was 
a devastating life, and I, too, like the pastor, can remember 
watching people and wondering what were they doing, you know, 
but now today I know what they're doing. They're taking care of 
their families, they are testifying, they are, you know, 
they're doing things that people do every day.
    I got into this about 30 years ago, sitting in one of the 
first therapy communities in the country, which was Daytop 
Village, and that's where my recovery started at, so I have 
been in this for quite some time.
    And about 3 years ago, with my wife, I visited Buffalo, NY, 
where we went to visit her family, and I met her first cousin, 
and her first cousin had a program that really excited me, and 
I've set up therapeutic communities all over the country and 
I've done a number of things, you know, in the substance abuse 
field, but there was something really special about this 
program that I knew that it had to come to Baltimore, and it 
was called ``Group Ministries Buffalo,`` and the acronym stands 
for God Recognizes Our Ultimate Potential, and it was something 
there that I had seen that I had not seen anywhere else. I saw 
people really recovering and I saw people with sustaining 
recovery, so I knew I had to bring it to Baltimore. So about in 
1997 we became incorporated and we became the first national 
chapter of Group Ministries Buffalo, so we're Group Ministries 
Baltimore.
    Some of the components of the program are Group Ministries 
has an empowerment program. That's our substance abuse program. 
Our substance abuse program is an intensive 18-month--6 months 
to 18 month--program, and at this presently we are doing it 
outpatient.
    The other portion of it is that we have what we call ``harm 
reduction,'' and that's our HIV and AIDS prevention, and we did 
receive two grants from the CDC where we are doing HIV and AIDS 
prevention in the faith-based community, as well as community 
associations and businesses.
    We also have a teen program which we call ``TAG,'' and it's 
a teen awareness program, and there we deal with issues that 
are confronting teenagers today, and we do it in discussion 
groups as well as field trips.
    And then we have what we call the ``prison ministry,'' and 
it is a mentoring ministry. Right now we are in the process of 
developing a choir, and it's called ``Corrected Life Choir,'' 
and these are young men who have come out of the institutions 
and they've decided that they want to develop a choir.
    Probably one of the most--the program that I'm most excited 
about is our FEDCO--it's Feed, Educate, and Direct the 
Community Oppressed--and that's our pantry. And the pantry 
serves as--to supply food for individuals, say, for about 3 
days that--in between check day or money spent or what have 
you, but what it affords us to do is to really get--it's kind 
of like a hook, and once someone is coming in a number of times 
then we realize that there are some things going on within this 
family.
    And what makes Group Ministries different, the Group 
Ministries is a community program. It is a program and it is 
housed where I grew up at, you know, so everybody knows when 
they see me that there can be a change, so it's right in the 
community where I grew up. I know everybody there. Everybody 
knows me. I know the ins and outs of the community. And that's 
what helps us to be effective.
    What I most--and I guess I'm going to get to the crux of it 
here, and the crux of it here would be the accreditation. Group 
Ministries is in the process of being accredited, because I 
feel that accreditation is very, very important to prove what 
you do, you know, without a shadow of a doubt, but not only in 
terms of the faith-based side of it, but I also believe in that 
we need to have full accreditation, so we are in the process of 
being accredited through the State of Maryland, because I 
believe that it works hand in hand. I think that people would 
fall through the cracks, you know, if they don't have the 
proper assessment, evaluation, and, you know, a plan can be put 
in place for them.
    My time is up. I probably do better with questions. Thank 
you.
    Mr. Souder. If you want to finish your statement, you can 
go ahead and finish your statement.
    Reverend Smith. OK. And I will--our brochure, I'll make 
sure that you get that.
    Mr. Cummings. Mr. Chairman, I don't know whether--did you 
hear him say if you had anything else you wanted to say you can 
continue, because everybody else ran on. We just want to be 
fair to you.
    Reverend Smith. Well, I'd just like to read this.
    What accreditation offers is that it raises the quality of 
service of the organization. It proves a standard of providing 
effective social services in the area of evaluation and 
analyzing, meeting the physical, mental health, and spiritual 
needs of the client, and brings a variety of treatment modes to 
the program. It opens up in available training in the medical, 
mental health, and spiritual models of treatment.
    What I'm saying is that it incorporates it all, you know, 
because, you know, faith-based, faith has its part, as well as 
the behavioral sciences has its part, and within the behavioral 
scientist community we can prove that it happens. A lot of 
times in the faith-based community and myself, you know, as a 
reverend, you know, a lot of times we can't prove it. We see 
the evidence of it. But I think that it needs to be a marriage 
in terms of being able to treat the whole person, because 
there's issues of individuals that walk into our agency that I 
realize and know that are far beyond the realm or the scope 
that I can address. That's why we have the collaborative, you 
know, within--as a component of our program, because it is 
needed. There's no way that you can just do the faith-based 
thing. You have to have a marriage between what I call 
``facts'' and ``truth.'' You know, the truth of it is that I 
may be sick, but God is a healer. So there's a marriage there. 
But we must have the facts and we must have the hard data also 
with the facts.
    Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Reverend Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T7709.017
    
    [GRAPHIC] [TIFF OMITTED] T7709.018
    
    [GRAPHIC] [TIFF OMITTED] T7709.019
    
    Mr. Souder. I appreciate the powerful testimony of each of 
you, not only today but in your personal lives, because today 
people are just seeing a little kind of reflection off of the 
mirror. In actuality, your day-to-day work and the sacrifices 
that you've done to reach others and what you've gone through 
in your personal lives and your long-time commitment speaks far 
more than just the 5-minutes. The 5-minutes is just a little 
capstone summary of your work, and we thank you most for your 
work and second for coming here today so that we can understand 
more about it and try to address a number of the questions.
    I have a series of kind of technical questions that I want 
to go through probably in a second round, but I have a 
fundamental question that a number of you have alluded to, and 
you've suggested a number of possibilities, but I'd like to 
hear you develop this further.
    One of the biggest problems in drug treatment--and anybody 
who spends any time at all in the stream and talking with 
addicts realizes many of them have already gone through 
multiple treatment programs. Reverend Sanders said it wasn't 
that he didn't want to change, it's that he hadn't. Ron talked 
about with his friends. And I'm certain they certainly at times 
wished they could be out of it.
    Clearly, people who have gone into treatment and have come 
out have continued to have problems, and we often hear data 
that suggests that a program was successful, but usually that 
is for short term, not a long term. A number of you today are 
long term impacts.
    What do you think are the key ingredients that ultimately 
help a person overcome their addition and change? Some of it is 
clearly faith. You've all talked about longer-term programs. 
Some of it is a combination of different approaches. Some of it 
is job training with it. But could you tell us a little bit 
about the mix, and then what you see in regular drug treatment 
that doesn't meet what you all met? And maybe each of you can 
take that, starting with Reverend Sanders.
    Reverend Sanders. Mr. Chairman, personally, I had gone 
through a number of treatment facilities without very much 
success. I relapsed again and again. And it was not until I 
coupled what I had absorbed from those programs with the need 
to be God-centered that I was able to overcome my demons. And 
it has been my experience, I've watched people through the 
years who have relapsed again and again, and I think the record 
reflects the fact that many programs for years and years, and I 
think many people are beginning to realize that over the last 
35 years or so--and I think the whole notion of Government 
working with faith-based programs has to do with the fact that 
America has spent trillions of dollars over the last 30 or 35 
years without much success because we have been neglecting that 
spiritual piece, that piece regarding the need for one to be 
God-centered.
    There is an inner man that must be nurtured and nourished 
also. It just can't be ignored.
    Reverend Smith. I think I'll start my comment out with a 
question, and it is to the panel. If you would get on a plane 
tomorrow, would you like to get on the plane with a pilot 
that's called to be a pilot or a pilot that's trained to be a 
pilot? And I say that to say that to have trained individuals 
is crucial, you know. Over the years of my addiction, I was in 
and out of hospitals. I was on psych wards. And I went through 
a gamut of different types of modalities of treatment. But what 
was interesting to me is that through each one of them I was 
able to gather something from each one of the situational 
experiences that I had went through, but a lot of times what I 
would come out of, even with--well, with the psych wards would 
be that there was times of depression and that my depression 
was addressed. It was at times that I didn't know which way to 
go. And that's when the faith piece came into place.
    But before I could do that I had to have the proper 
evaluations. I had to have that factual piece of it and I'm 
trying to--there had to be an intervention of the medical 
model, there was an intervention of the mental health piece, 
and I found a sustaining in the spiritual aspect of it, but it 
was a combination of all that was really as help to sustain my 
recovery to this point.
    Mr. Souder. Ms. Trollinger.
    Ms. Trollinger. At House of Hope we have--everybody that 
comes there has been through one and some as seven secular drug 
programs before they get there, and actually drugs are not the 
problem. That's not the root of the cause. There are deeper 
things that are causing them to reach out. They're all looking 
for love in all the wrong places. And when they come to House 
of Hope, we have a caring staff that are not drafted, they're 
mandated to be there. They have a heart for helping hurting 
people. Many of them have been through drug programs, 
themselves.
    But I think it is the love of God that touches their hearts 
and the healing starts there, and when they come there they--
many of them say they feel like scum buckets, because we always 
greet them with a hug and tell them that they're special, and 
later in their testimony they'll say they can't believe that 
because they have such a poor self-concept, and so we help them 
through time. And it takes time. It's not a quick fix, but 
sometimes as much as a 1\1/2\ to 2 years of being there, 
walking through their problems with them, that they literally 
go off drugs cold turkey, and we don't put them on a medication 
to help them get through that. So that's the love of God 
through our staff and our program.
    Mr. Souder. Mr. Castellani.
    Mr. Castellani. It is obvious that we say--if we say that 
these people have been in other programs before they get to 
ours, that they said that before, so I guess that follows the 
train from all the way square one to where we are.
    The good thing, I think when we get to where we are the 
truth shall set you free, and I think we confront them with the 
truth of life, the truth not only of the Gospel but the truth 
of life.
    Psalm 103, verse three--I use this for my premise. We go 
back and forth to whether it's sin or we go back and forth to 
whether it's a disease. Psalm 103 says, ``Who forgiveth all 
thine iniquities, who healeth all thy diseases.'' And so 
whether it is a sin problem, whether it is a disease problem, 
we know that the Gospel works, and we are firm in that area.
    We also know that one of the difficulties I believe in a 
short-term program or a program that is strictly clinical, that 
these individuals need to have a challenge, and one of the 
challenges that Teen Challenge offers them, and that is in the 
work field. Because we are faith-based, because we have to 
support ourself by various forms of funding, one of our forms 
of funding is teaching them a work ethic. We have individuals 
who have gone through our program who are lawyers, doctors, 
school teachers, you name it, and they have all basically said 
to us when they leave, ``One of the things that you taught us 
here is the value of work.''
    And I think this is a critical part. When it comes to 
training, licensure, I can understand that. In Pennsylvania we 
are a licensed program. We do the psycho-socials, we do all 
these individual things, but because we are a free-standing 
faith-based program we are still not supported in any way, and 
so every year my staff has to go through the same process that 
a clinical staff has to go through of getting CACs and all 
these various things, and so I'm kind of here saying today 
we're almost on the same level playing ground. The difference 
is the Jesus factor. And so--and I really am not against a form 
of licensing in some way; I just wouldn't want the license to 
be the control. I think there are some other facets in this 
that we need to take into account.
    And again I just thank you for the opportunity to make a 
comment.
    Mr. Souder. Mr. Frederick.
    Mr. Frederick. Speaking on a personal level, as going 
through the program and having a problem for the majority of my 
life, it was a matter of choice that I made. I made a choice 1 
day that I wanted to change.
    A person can go through many programs, as I did before I 
came to Teen Challenge, and the thing that really changed my 
life is that I made a choice that I wanted to change.
    And another factor was that I had been through many secular 
programs, and their idea was somewhat to change the person just 
basically on the outside. I needed an inside job done. That's 
where my problem was, on the inside. So I came to Teen 
Challenge and they began to allow me to see how wretched my 
inside was, as compared to Jesus Christ, and I began to change, 
and I wanted to be in the image of Christ. I wanted to do 
something good in society. I wanted to be a productive citizen. 
I wanted, like the pastor said, to--I saw other people 
accomplishing things and doing things. I said, ``I want to do 
that, but I have to make a choice to change.''
    I know a lot of programs, what they do, they change the 
outside of you. It's somewhat like putting a tuxedo on a pig, 
and once you let him go he returns right back to the mud. See, 
what I needed was the inside to be changed, and I know that 
only Christ could do that. Nothing else could--I heard Mr. 
Cummings say that drug addiction is an illness. Yes, it is. But 
we serve a Great Physician. We don't just serve a physician, we 
serve the Great Physician, who can heal all illnesses. And 
psychological problems? Yes, he can even heal those. I had many 
psychological problems. Most of them were healed or dealt with 
because I was confronted with them, I was shown them by my 
counselors and other people, and it wasn't because of my 
neighborhood that I was on drugs or my family or my friends, it 
was a choice that I made. Now I had to make another choice, and 
that choice was to change.
    Sometimes people that go through programs, they are not 
really ready to make that choice, and that's when it says, 
well, you get a lot of people that go through it not long term, 
but they are not making a choice. They haven't come to that 
point where they know they need to make a choice, and that 
choice in my instance was Jesus.
    Mr. Souder. Thank you.
    We've also been joined by Congressman Weldon from Florida, 
a doctor who I'm sure agrees with most of your statement there, 
as well.
    Congressman Cummings, questions?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And to our panel, I want to try to give you a picture of 
what the problems are and what the concerns are.
    First of all, I don't think there's anyone up here--and you 
do not have to convince any of us, I don't think, that faith 
and God plays a major role in our lives. I mean, that is--I 
mean, some folk don't believe, but I think everybody up here is 
on believe.
    Some of the issues go to some of the things that Reverend 
Smith talked about. The problems that we see is that we've got 
tax dollars that are paid by every single citizen of this 
country, and a lot of those citizens are concerned that if we 
place their tax dollars into churches, they first want to 
know--they first want to make sure that there is going to be 
accountability, because they say to themselves, ``Well, if I 
had a program and I was using tax dollars, I'd probably be 
audited, I would be--I want to make sure that there is clear 
accountability and responsibility. And I don't think that 
there's very many entities--I know Reverend Sanders as a pastor 
knows what I'm talking about, and as a lawyer I've represented 
many churches, and as the son of a pastor and a reverend I've 
said it many times that if there's one thing that can get a 
church divided it's money, let me tell you.
    And I guess what I'm getting to is that if we have a 
situation where money is going--and, again, keep in mind in the 
United States we have Muslims, Buddhists. They're all paying 
taxes. And we have all kinds of religions in our country.
    One of the things that they want is accountability, and 
another thing that they want is to make sure--and this is very 
crucial--that their tax dollars are not being used by religious 
or by faith-based organizations to discriminate on the basis of 
religion, on the basis of race, and that those are some of the 
real concerns.
    It's not the issues--because I don't want us to get 
confused that we are all convinced that faith-based 
organizations are effective. That's not the issue. And I don't 
want us to walk out of this room, any of us or the audience, 
thinking that's the problem. Even the people who are adamantly 
against these provisions will say they don't have any problem 
with faith-based, as long as they are not discriminating with 
regard to employment, again, using their tax dollars to 
discriminate, and they want to--there's another thing that 
they're concerned about, too, and I just want to throw this out 
to the panel.
    Some of the research has shown that a lot of times when 
Federal funds flow into small entities that are not equipped to 
handle the money, the next thing you know you've got the FBI 
going through your books and indictments flowing. As a lawyer I 
can tell you I've seen it. And that's not to scare anybody, but 
that's a fact. I don't know how many of you all have ever dealt 
with the FBI. It's not a pleasant experience.
    So I guess those are the kind of concerns that the other 
side brings to this issue. It's not that they are against it. 
They want to see it. As a matter of fact, we have provisions 
already in the law that allow charitable choice. It just so 
happened that President Clinton did not push it because he felt 
he had concerns about the Constitutionality of it, of 
charitable choice--that is, being able to discriminate in 
employment. Say, like, you have a Baptist church, money goes in 
the Baptist church, and the only people you hire are Baptists. 
If a Catholic comes along and he wants to help with your drug 
treatment program, you say, ``Uh-oh, uh-oh, what church do you 
go to?'' And he says, ``St. Mary's Catholic Church,'' then he's 
out. Those are the things.
    And a recent poll was done where 78 percent of Americans 
said that they do believe that religious--I mean, that faith-
based organizations do an effective job, and then when it came 
down--and they liked that. But when it came down to the 
question of, ``If faith-based organizations were able to 
discriminate using your tax dollars, how would you feel?'' They 
basically said--a vast majority of them said--about the same 
percentage said, ``We don't want that. We don't want them 
discriminating.''
    So any of you may want to comment. Reverend Sanders?
    Reverend Sanders. Yes.
    Mr. Cummings. I know I've said several things, but you can 
comment on any of them.
    Reverend Sanders. OK.
    Mr. Cummings. Or all.
    Reverend Sanders. First of all, one of the things that, 
among other things, that the government in Indianapolis under 
Steve Goldsmith did, not only did they help us to access 
funding, but he had members of his staff who assisted us, gave 
us technical assistance, helped us to seek out grant moneys, 
and even helped us to understand the importance, which we 
already were aware of, of developing and maintaining proper 
records and documents and so forth, so we do that. We have a 
501(c)(3) and we are in line with all of that.
    And also another feature of our program, we don't 
discriminate. We are devoted to helping people who are in need 
of help. Now, clearly this is Mount Vernon's relapse prevention 
program. We decided to tackle it on this at this point because 
we didn't want to duplicate some other services that were being 
provided. We understand it is such huge problems. There's 
prevention, intervention, and relapse prevention.
    But we don't discriminate on the basis of belief systems. 
Our lives are a testimony, and so what we do, we just encourage 
people to realize that you need this spiritual piece. The 
spiritual component has got to be addressed. We don't force our 
belief system on anyone.
    Personally--and I don't mean to offend anyone--as far as 
I'm concerned, a man can call his deity Jim Shoe or Oatmeal 
Cookie. I'm not hung up on that, just so long as you realize 
that it's there.
    And this is what we emphasize. We don't discriminate on the 
basis of what a man chooses to believe or not to believe. We 
know what works for us. And I am thoroughly convinced that a 
man with experience is never at the mercy of a man with an 
argument.
    Reverend Smith. One of the things I recognized even before 
this argument came up, I'm an associate minister at New Summits 
Baptist Church, and when God gave me this ministry I realized 
that I was going to bring it up underneath the church, in that 
sense, and I realized that it had to be separate and apart, so 
we have a separate 501(C)(3) in terms of, you know, Group 
Ministries.
    And Group Ministries looks at spirituality not differently, 
but I look at it as the relationship between whoever or 
whatever that you deem most important in your life. So it's not 
something esoterical, way out there. But, you know, when I was 
using drugs, my god was the drugs. So what we do is we take 
people from dope to hope, see, because I believe when an 
individual comes through those doors the ultimate goal is to 
get him on the spiritual path, but the thing is to meet this 
individual at the level of their needs, because usually when 
somebody comes in they are in crisis mode anyway. What they 
need at that point is they need good evaluation, they need to 
be diagnosed by trained individuals, licensed individuals who 
can sit down with them and help to navigate them through to the 
point where what I call Group Ministries is a recovery program 
that puts people on the spiritual path.
    So we use spiritual principles, and the spiritual 
principles are--some of them are perseverance, tolerance, 
honesty, open-mindedness. And the way that we use them is 
that--when I was out there using drugs, if I was standing on 
the corner I was broke. And somebody came around the corner and 
said, ``Hey, man, you know, a truck is open around the 
corner,'' I became very open-minded. I became very willing. I 
knew that when I got up in the morning, if I persevered and was 
persistent that I would reach my goal.
    Well, what we do is use those same principles in recovery; 
that we say that let's take the focus off of the dope and let's 
put it on the hope.
    Now, the same things that you use on a daily basis in order 
to survive, let's apply those same principles to a change and a 
redirection of life, of your life.
    It is very crucial that a program will be accountable, 
accountable to the individual coming into your establishment 
for help, and I see the mingling as a problem.
    You know, I'm in a situation now where, OK, I received 
$125,000 from the State about a year-and-a-half ago to do 
renovation of our building that we are going into. Part of what 
we did was sign a covenant with the State that we would not 
have any worship services, nor are we going to turn it into a 
Fraternal Order of Police either or fraternity, but I had no 
problems with doing that because we are a spiritually based 
program.
    Now, if someone ends up in church--and hopefully we do want 
to get them on that spiritual path, but that's not the input. 
The input is to meet the individual at the level of their 
needs, to address those issues that got them there in the first 
place, and that's where I see it as being.
    Ms. Trollinger. At House of Hope we are a 501(C)(3) 
organization and we--I don't discriminate with race, color, 
creed, or denominations, but we started with $200 and five of 
us praying, and our budget today is $90,000 a month, and we 
never know where the money is coming from, but God is always 
faithful.
    One time somebody send us a check for $1 million, somebody 
I didn't even know, but the word gets out of a program that's 
doing the right thing and has results.
    We were audited. We have a CPA that is on staff with us. We 
were audited by the IRS, and they said that they had never seen 
books as clean as ours, so our books are open. We don't have 
anything to hide. We know that we have a great success rate 
because we are doing what God has called us to do, and that's 
family restoration.
    Mr. Castellani. Great comments. You look forward to a day 
like this when you can have an open dialog, and you think about 
all these things for months and weeks.
    And as I think of this today, I wrote down just a few 
notes. I think there--I'm not opposed to any kind of a 
credentialling or licensure, per se, as long as it is not a 
control.
    We looked at the medical field, and there's different forms 
of doctors. There was a day when Blue Cross would not pay for 
chiropractors, but now they do, and things like this, so I 
think there's different forms of healing that can come to a 
person, whatever his problems may be, whether it's in the drug 
field or whatever it is. I just wouldn't want it to be a 
dictatorial type.
    And when it comes to finances, in our 150 Teen Challenge 
centers across the United States, all of them have to have an 
audit by a CPA firm yearly. It is part of our accreditation 
that we have instituted among ourselves.
    Now, if it is an institution less than $100,000 income, it 
is not a CPA but it is another form. I can't tell you the form 
that it is, but it is another form. So any of our institutions 
with $100,000 income or more have to have a CPA firm do a 
certification on their auditing.
    I just feel that there are so many ways that this can be 
done. And I understand that when our President opened this up 
to faith-based, yes, it could be any religion, whatever the 
religion may be, and I have to accept that. I also accept the 
fact that he has given me an opportunity to come to the table, 
and so I--and I end with this. I think Elijah had this 
problem--not problem, but he was confronted with the same 
challenge 1 day, when he says, ``Bring all the water you want 
and see what happens,'' and then he says, ``OK, you pray the 
way you want, rather, and see what happens,'' and they prayed 
all they could and nothing happened. He said, ``Now soak it 
with water,'' and he prayed and it happened.
    And so I think we need to look at the outcomes. If the 
outcome is there and it is working, whether we use a certified 
mechanic or whether we use a good mechanic in our neighborhood, 
if it works I think we ought to be grateful that our car runs.
    I just thank you.
    Mr. Cummings. I want to thank you, Mr. Chairman, for your 
indulgence, and I just wanted to say to you--at first I thought 
you were talking about me. My name is Elijah. [Laughter.]
    Mr. Souder. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Cummings raises really the core of the issue that we 
face, and that's the separation of church and State, and I want 
to ask each of you how do you think that we can mix public 
money with your private faith-based activity and not make you 
subject to all the red tape, the possible intrusion of the 
Government. Do you think that's possible? I'll start with Sara.
    Ms. Trollinger. I think charitable choice, that people can 
choose to give more and the deductions would be greater for 
them. I also think that Government money can be put into things 
like drug treatment doctors, where a person can choose to go to 
a program that is working. We can use it for job training, 
vocational training, scholarships. Our parents actually give 11 
percent of what it costs us to operate, so we have an 89 
percent shortfall, but Government may be matching funds in some 
areas, places where we don't have to--where we can keep the 
church and State separated without, you know, teaching the 
Jesus Christ is Lord of all, but, you know, we'll still do that 
in the basic foundation areas.
    Mr. Mica. Maybe some others could respond. Do you think it 
is possible? And if anyone has any other unique approaches they 
might submit to the subcommittee.
    Reverend Sanders. I know it is possible, and I think if 
more people would pay closer attention to the model that former 
Mayor Steve Goldsmith established, as I indicated earlier 
members of his staff helped us to cut through a lot of the 
bureaucratic jargon and so forth and they assisted us with our 
grant applications and they just made the process easier, and 
they never interfered with what we were doing. I think they 
respected the fact that we were already committed to doing what 
we do and we're going to maintain that commitment with or 
without the help of outside agencies. But they played a great 
part in assisting us, but they never interfered with anything 
we were doing. It was a hands-off approach, government working 
in partnership with faith-based groups.
    Mr. Mica. Thank you.
    One other thing that I might like to establish for the 
record is that, in previous testimony before this subcommittee, 
most of the public or secular-based treatment programs have had 
a dismal success ratio, sometimes as low as 25, 30 percent, and 
I believe--and that's part of what I'd like to have you all 
make part of the record, sharing with us your success rate. 
Maybe you could give us some range of success with your faith-
based programs, again, that we can use as a comparison in the 
future.
    Sir, let's just go down the line, if you want to give us 
guesstimates or ranges for the record, we'd appreciate it.
    Reverend Sanders. For the record, we opened our center in 
1998. We have been instrumental in getting more than 150 people 
in residential programs, and through our weekly--we network 
with other agencies that provide different services, and 
through our weekly support group meetings and 12-step program 
meetings, some of our meetings have outgrown our facility, 
which is located one block from the church, so we open up the 
church, and on an average we help to keep more than 100 people 
sober a week through our 12-step programs and our support group 
meetings.
    Mr. Mica. Is that about two-thirds, two out of three, as 
far as success rate? I mean, what we're trying to do is get 
some handle on--I mean, if you have the same ratio of failure 
that the public programs are, there isn't a whole lot of 
incentive for us to----
    Reverend Sanders. Well, I haven't----
    Mr. Mica [continuing]. Put money into a program if it is 
not successful.
    Reverend Sanders. Well, our program is successful, because 
if we don't help but one individual we've been successful. I 
haven't compared our program with other secular programs to see 
who is doing a better----
    Mr. Mica. Well, of those who come in or are a part of your 
program, what percentage do you think you are helping?
    Reverend Sanders. I would say three out of five.
    Mr. Mica. Three out of five?
    Reverend Sanders. Yes.
    Mr. Mica. And, sir?
    Reverend Smith. May I respond to the first question you 
asked about the separation of the moneys?
    Mr. Mica. Right.
    Reverend Smith. And as far as the church, because we are 
not a church, we are a spiritually based organization, so we 
aren't proselytizing people in terms of, you know, you have to 
be Baptist, you have to be, I mean, what have you.
    I am blessed that my wife is an accountant, so I don't have 
the separation problems in the accounting problem with that, 
because I think there is a danger in the mingling. You know, 
I'm also temporarily in a situation where we have received some 
dollars from the CDC, and at this point, since there is nothing 
really enacted, there is mingling. There's mingling in the 
sense that supporting of the church, itself, is a church 
sometimes, it's an outreach sometimes, you know, but the lights 
are on all the time. And what I'm saying, there is a danger of 
a mingling unless it is a--my suggestion would be a separate 
501(C)(3), first of all. Second, I have to always go back to 
the accreditation, because with accreditation you can prove 
rather than have to guesstimate of who was serviced, that you 
have the proof, because it is documented.
    And, you know, we seem to be--the faith-based organizations 
have survived a lot of things, and I hear my, ``Well, I don't 
know whether they would be able to function under all the 
pressure, all the--'' you know. The faith-based community has 
survived a lot of other things heavier than this coming down, 
so it would be an opportunity also for the faith-based 
community to step up to the plate and become accountable or 
more accountable in addressing this issue.
    Those would be my comments.
    Mr. Mica. What about your success rate?
    Reverend Smith. At this point, we are doing more education 
right now at this point.
    Mr. Mica. Than treatment?
    Reverend Sanders. No. We are in the process of being 
certified, you know, to do treatment, because I'm a firm 
believer in that I think it has to be a meshing of the two, the 
traditional treatment, the traditional accountability, as well 
as the spiritual aspect of it.
    I have been doing this about 30 years, and I've found that 
in most spiritual programs or programs or even programs that 
develop in church, they usually already address individuals who 
have already been through a certain amount of modalities or 
have been through some things, and they are sustaining, but, 
like the coming in the door, I have seen problems with that.
    Mr. Mica. Ms. Trollinger.
    Ms. Trollinger. At House of Hope we have had over 700 who 
have gone through our program. We have hundreds have been 
through outpatient that are not in the residential facility. 
And we have a 1 percent recidivism rate, and we have a 95 
percent success rate, and that 5 percent that--where we did not 
succeed are those who have not reached their bottom. They have 
been incorrigible, so disruptive, fought staff, that we had to 
send them back to detention center, so we've had a great 
success. And we document our success. We have an after-care 
program after they graduate that they have to attend. We have 
counseling that they continue with, and we keep up with them 
through telephone calls. And we have every August, first 
Saturday in August, we have a reunion and all the old boys and 
girls come back.
    Mr. Mica. Thank you.
    Mr. Castellani. I'm for the accountability factor. The 
accountability factor, though--I can have great records, but I 
still do no cure. And so I don't think the records, itself, 
verify what I do as a person or as a group.
    Teen Challenge has had various studies done on it through 
the years, and I really hate to say the figures, because the 
figures are quite high. And you look at it, you want to be 
honest with yourself. You know, all of our figures have been 
based on graduates, not those who dropped out prematurely, and 
I don't know of any organization, whether it be secular or 
Christian, who can verify actually what they've done, what they 
did.
    The New York Times interviewed me recently and I made the 
error of saying, yes, we have dropouts, and they said, ``What's 
the percentage,'' so you use a guesstimate. And they used those 
figures in a negative way. And I don't mind being put in a 
negative light as long as my competition is in negative light, 
but when I'm made negative because it is a one-sided issue, it 
troubles me.
    So we've had some great--and the first study we had done, 
by the way, was done by--the money was provided by HEW. 
Catherine Hess was a professor from the Columbia University in 
New York City, and she was running a methadone program, and 
Teen Challenge in those days--that's almost 20-some years ago 
now--Teen Challenge in those days was saying they had a 70 
percent cure rate, so she got a grant, did the study, and when 
she got done with the study--now, it wasn't the dropouts along 
the way. It was the graduates. And the study at that time was 
86 percent of the graduates that were still clean, and that's 
where the statement came. She said, ``The difference between 
Teen Challenge in 1977 and the secular programs was the Jesus 
factor.''
    We just had a study done by a young fellow who was doing 
his doctorate thesis in Northwest University in Chicago, and I 
understand this is a student, so he did a study and he said 
that the study was about the same. The one good thing that he 
brought up, with his small study, small as it was, 90 percent 
were full-time employed, and we really feel that that's a big 
factor, as well.
    So I think there is more than percentages who drop out and 
more percentages of who are cured. What are these people doing 
after?
    I welcome either challenge. I welcome the challenge because 
the truth shall set you free, and I like truth.
    Thank you.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Souder. We've also been joined by our distinguished 
leader in the anti-drug effort, Mr. Gilman.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me just say I really appreciate this discussion.
    I think Representative Cummings has raised some of the 
issues in terms of what people who are opposed to or people who 
have reservations or people who are trying to think through the 
initiative. From the answers that you are giving, I mean, you 
really operate pretty much like any other 501(C)(3) regular 
tax-exempt, not-for-profit organization. I mean, I didn't see 
any difference from what I know many organizations to be.
    Let me make sure. Does each one of you receive some kind of 
public support--that is, public dollars, any public dollars 
that comes from an amalgamation of individuals, resources that 
the city controls, State controls, or any public entity 
controls?
    Ms. Trollinger. No, we don't.
    Mr. Davis of Illinois. You don't?
    Ms. Trollinger. No, we don't.
    Mr. Davis of Illinois. And Teen Challenge does not?
    Mr. Castellani. No, but some of our centers do get food 
stamps because the student qualifies for it, not the center.
    Mr. Davis of Illinois. OK. So that doesn't go to the 
center; that just goes to the individual student. But both of 
you receive some public--you've gotten money from CDC.
    Mr. Castellani. Right.
    Mr. Davis of Illinois. And you've gotten money from the 
city of Indianapolis. That's public. So you both receive some 
public dollars.
    Reverend Sanders. We have. We have received some, but 
that's several years ago.
    Mr. Davis of Illinois. OK. But you're not receiving----
    Reverend Sanders. At this time, no.
    Mr. Davis of Illinois [continuing]. Anything at this time.
    Reverend Sanders. No.
    Mr. Davis of Illinois. The recommendation--see, I guess the 
difficulty that I'm trying to get to is that your 
recommendations are a little different than what the initiative 
currently calls for. I'm saying you are all in favor of serious 
accountability, but does that mean that you'd like to see in 
the initiative some indication of that--I mean, that there 
ought to be some indication of accountability in the 
President's initiative? That's what I'm asking.
    Reverend Sanders. Yes.
    Mr. Davis of Illinois. All right. You also, in terms of 
some people are fearful that standards would be lowered, and, 
of course, from listening to you, Reverend Smith, I mean, you 
are suggesting that there be standards in terms of individuals 
having some level of training, professionalism, or whatever. Is 
that----
    Reverend Sanders. Yes, sir.
    Mr. Davis of Illinois. And I wanted to ask you, Reverend 
Sanders, in terms of your own background, what kind of 
professional or preparation do you have for running the 
programs that you run?
    Reverend Sanders. Well, I don't--I went--I attended college 
for 2 years in Chicago, but the professional who directs our 
program is Dr. Rosie Hatcheet. When I referred to the Fairbanks 
Treatment Center, she is the one that has her credentials. What 
I've learned to do is to surround myself with professional 
people and allow them to do those things.
    Mr. Davis of Illinois. Is that an M.D., Ph.D. or what?
    Reverend Sanders. Yes, she's a Ph.D.
    Mr. Davis of Illinois. So she is a Ph.D., and so none of 
the activity that you all are engaged in other than some focus 
on the presence of a supreme entity is any different than any 
of the other programs. And, of course, it is amusing to hear 
you say that you surround yourself, because when you were 
testifying I observed that you were reading, you were giving 
the information that I had read, and I sat there smiling to 
myself saying that this gentleman is delivering his testimony 
verbatim as I had read it without looking at the paper, so you 
don't need any more training. I mean, you are an expert----
    Reverend Sanders. Without question.
    Mr. Davis of Illinois [continuing]. At what you do. So 
there are people who suggest, you know, that fly by-night 
individuals, you know, that somebody who just kind of gets the 
feel is going to come and start to do this, and that's going to 
lower standards, people are going to discriminate. And I've 
heard each one of you suggest that, even though you are Baptist 
or even though you're White or even though you're whatever, if 
I came and applied for a job at your program and told you that 
I was Catholic, but if you thought I was a good drug counselor 
I might get hired. I mean, is that----
    [Panel members respond in the affirmative.]
    Mr. Davis of Illinois. And so that wouldn't have a bearing. 
If I came and said, ``Well, I'm Black, and you are not,'' 
you're not going to say, ``I can't hire you.``
    You see, all of the problems that people raise, you don't 
represent any of that. But let me ask this one question. And I 
don't have any problem with the--because, see, I'd hate to have 
a surgeon, for example, who didn't have any faith, and, of 
course, I'd hate to have a surgeon who didn't have nothing but 
faith. [Laughter.]
    I mean, I wouldn't want either one. And so this business of 
mixing without proselytizing, you know, without pushing to the 
extreme or suggesting that people have got to be this or have 
got to be that, do you really believe that people who would 
start to provide services under the initiative would feel a 
need to do that? I mean----
    Reverend Smith. I think I'd like to go first this time, 
instead of going last.
    I think in my statement one of the things that I said, that 
it would be a marriage between the behavioral scientist, the 
behavioralist, as well as--and when I say that, I'm talking 
about traditional certification--I mean those individuals who 
are trained to recognize, you know, schizophrenia, depression, 
and to be able to recommend and diagnose and also to create a 
treatment plan to assist those individuals. So in a marriage, 
you know, as well as having the spiritual component there, a 
lot of times I've found people that, you know, I've talked 
about Jesus, but you know what, they really wasn't getting it. 
They were--as hard as they wanted to at that time, they really 
wasn't getting it because there were some other things that 
were going on with these individuals. I mean, there were some 
biological things. And I know Christ can hook it up, but there 
were some things that were going on that needed some other 
attention that was far beyond my expertise. There were some 
areas that I knew without a shadow of doubt--and we've all 
professed to be faith-based--all the hands in the world would 
not have made the connection, and yet I believe that God can do 
that, but I also believe that he also puts other entities in to 
help. You know, if I get hit by a car and I'm laying there 
bleeding, please call my pastor, but call 9-1-1 first.
    So I believe that it needs to be a marriage, you know, so 
in that maybe some things will be relaxed. Maybe some things in 
a marriage--a higher standard will be made. But I believe that 
it needs to be a coming together and I believe that it can be 
successful if there is a coming together.
    And there's going to be in-fighting. There's going to be 
different opinions. Maybe one modality might try to take, but 
what have you. But in a marriage--and those of us who are 
married, we know that sometimes it is give and take, but it is 
for the betterment of the marriage, and in this case we're 
looking at the betterment of the serving of the individual who 
is coming in who is already in crisis seeking help.
    Ms. Trollinger. I think that the faith-based ministries our 
outreaches will be an asset to the Government, and in my packet 
I listed 14 or 15 different areas that we represent a trust 
with all levels of society that is not experienced within the 
Government, and on and on, and I won't take the time to read 
them now, but I believe that we are going to prove to be a 
great asset.
    Right now we are operating at House of Hope and we don't 
really need the Government because we are trusting God and he 
always takes care of all of our needs, but we'd like to be an 
asset at the same time.
    Mr. Davis of Illinois. Thank you. I have no further 
questions, Mr. Chairman.
    Mr. Souder. I'd like to quickly clarify, because I think it 
is a little confusing, two of the questions.
    Would the House of Hope hire someone as a drug counselor 
who wasn't a Christian?
    Ms. Trollinger. No.
    Mr. Souder. Even if that meant taking no Government funds?
    Ms. Trollinger. Exactly. We would not compromise.
    Mr. Souder. Would Teen Challenge take Government funds if 
it meant you had to hire a counselor who wasn't a Christian?
    Mr. Castellani. No.
    Mr. Souder. Thank you.
    Mr. Gilman.
    Mr. Gilman. By that, by ``Christian,'' as long as you have 
the faith it doesn't matter what church credential you have.
    Mr. Souder. And you wouldn't discriminate on race, you 
wouldn't discriminate on age----
    Ms. Trollinger. That's right.
    Mr. Souder [continuing]. You wouldn't discriminate. But 
because your mission is Christian----
    Ms. Trollinger. That's right.
    Mr. Souder. Would that be true of you, too, Pastor Sanders? 
This isn't who you cover, because by law if you took any 
Government funds you'd have to cover anybody and currently 
cover anybody. This is a question of on your staff would you 
take someone who wasn't a Christian?
    Reverend Sanders. I think our preference would be someone 
who believes in a Supreme Being, you know, as I stated earlier. 
We have to respect the fact that people have had different 
religious and cultural experiences, and I just--you know, 
that's my approach to it. I just believe that we need, you 
know, to believe.
    Mr. Souder. And I understood Reverend Smith to say you 
would hire?
    Reverend Smith. We would. As a matter of fact, our clinical 
director, consulting clinical director is a Muslim. He 
practices the Islamic faith. Because what I've found in 
religion, if there is--there is three things that runs through 
all religions, and, you know, it is the relationship between 
God, the love of community, and the love of self, and those are 
the principles that we abide by because the bottom line is we 
are there to help and to assist those who are in need.
    Mr. Davis of Illinois. Mr. Chairman, if I could, if I said 
I was Jewish, does that mean you wouldn't hire me?
    Ms. Trollinger. If you didn't believe in Jesus Christ as 
your personal savior, we would not, because that is the success 
of our program.
    Mr. Davis of Illinois. Or if I was Muslim?
    Ms. Trollinger. Exactly. Same way.
    Mr. Davis of Illinois. All right. And----
    Mr. Castellani. Yes, we wouldn't--we would not hire to be a 
counselor, for sure, because our whole premise is the Gospel, 
and the Scripture says, ``A house divided against itself will 
fall,'' and ``Be not unequally yolked together.'' I have no 
problem with a Muslim doing his own thing in his own way. I 
have absolutely no problem, and I think he could be at this 
table and he could have the same benefits that I could, but I 
don't think we have to mix the two. That's my opinion.
    Mr. Souder. It's pretty clear in where we are headed in the 
law that if a person has no choice, you can't have a program 
that would only be Christian. If a person has choices, you 
could have a Muslim program, a Jewish program, a Christian 
program, a secular program, or whatever. If you don't have a 
choice with the money, you can't do this.
    It is also clear that you can't use any Government funds if 
you get it, regardless of whether it is President Bush's 
proposal or others, you can't use any of that money for 
proselytizing.
    Ms. Trollinger. Right.
    Mr. Souder. It would have to be for a computer, it would 
have to be for overhead.
    Ms. Trollinger. Right.
    Mr. Souder. And you would have to keep clear of the money. 
But we do have a difficulty with this question of non-
discrimination, that we are going to work with and we are 
trying to work through, because it needs to be inclusive, and 
our country has a lot of diversity. At the same time, different 
programs have different strengths, and a Muslim program is not 
going to want to hire Christians in some cases. Now, if it is a 
blended program, like several of you, then you may, and that's 
what we're wrestling with.
    I need to go to Mr. Gilman, and then we can get back for 
some further questions.
    Mr. Gilman. Thank you very much, Mr. Chairman. I think you 
have raised a very important point, my colleagues raised a very 
important point about discrimination in taking on some of your 
patients, clients.
    We recognize the importance and vital role that our faith-
based organizations are playing, and we commend all of you, but 
when it comes to having a discriminatory practice, I think you 
are going to be limited in the kind of Federal funding that you 
will receive.
    We who are fighting the drug war recognize how important it 
is to give attention to both reduction of demand and reduction 
of supply, and that we have to do it simultaneously and try to 
provide adequate resources, but if, as a faith-based 
organization, if you are going to be solely administering to 
those of your own faith and being discriminatory in other 
clients, I think you are going to have a problem about getting 
any Federal funding. But we want to----
    Ms. Trollinger. I want to say something about that.
    Mr. Gilman. In just a moment. I want to commend you, 
though, for the work you are doing, and whatever we can do to 
find a good solution to those who have become addicted to 
illicit narcotics is certainly important. I have been fighting 
this battle for more close to 30 years now, and we have found 
no silver bullets out there that takes care of those who are in 
need of treatment and rehabilitation and to deny themselves any 
further usage of getting more further involved in addiction.
    Now, you raised your hand, Ms. Trollinger?
    Ms. Trollinger. Yes. The clients that we serve and the 
families, we do not turn anyone away because of their 
affiliation with--most of them don't believe in anything. They 
come to us. And we've taken Jewish people, we've taken Muslims, 
every type group, and we do not push our religion, our 
particular belief on them. We walk it out in our everyday life. 
It is caught and not taught.
    Mr. Gilman. I think, though, in response you said you 
wouldn't take an employee----
    Ms. Trollinger. Hire someone.
    Mr. Gilman [continuing]. In your organization.
    Ms. Trollinger. Exactly. An employee who is the example.
    Mr. Gilman. Pardon.
    Ms. Trollinger. Who is--we would not take an employee as a 
role model to be a part of our staff. No. But we will--all of 
our clientele, they are from everything under the sun. They're 
not--most of them are not Christian.
    Mr. Gilman. Mr. Castellani, I think you raised your hand.
    Mr. Castellani. When it comes to taking anyone in the 
program, we lay out what our program is, and whatever their 
background of faith or no faith, they're welcome. We accept 
whosoever will. In fact, when they complete our program, we do 
not say they need to go to a specific church, but we say, 
``Please go to church.``
    Ms. Trollinger. Of your choice.
    Mr. Castellani. Whatever that church is. And we have had 
many Jewish individuals go through Teen Challenge, and when 
they complete our program some of them return to their Jewish 
synagogue, some of them say they're ``completed Jew'' now in 
various forums like this, and we've had individuals that were 
Muslims that have come in the program, and we just say to them, 
``Look, as long as you don't disrupt the program--this is who 
we are, this is what we believe--you can be here.'' And that's 
the agreement when he comes in. He knows that coming in. And if 
he decides halfway through, ``Look, I can't put up with this 
stuff,'' then fine, he can dismiss himself and we'll help him 
find another program. That's the way we work.
    Mr. Gilman. What is the average of your success rate, 
including any recidivist? And do you followup so that you have 
an accurate----
    Ms. Trollinger. Yes, I--are you speaking to me?
    Mr. Gilman. Yes, please.
    Ms. Trollinger. Yes. I just quoted a few moments ago that 
our success rate is 95 percent, restoring our teenagers--they 
are between the ages of 12 and 18--back home to their parents 
with--the parents have to be part of the program, also.
    Mr. Gilman. But what about the followup after they get back 
to them?
    Ms. Trollinger. All right. The followup, they continue 
counseling after they leave, they continue after-care programs 
after that. We keep up with them by telephone calls and----
    Mr. Gilman. Is there any recidivism?
    Ms. Trollinger. It's 1 percent.
    Mr. Gilman. And how far do you follow your clients? Out to 
what----
    Ms. Trollinger. We continue to follow them, because we-
every August 1st every one is contacted, and we talk with them 
personally and they come back to a reunion with us.
    Mr. Gilman. Would our other panelists comment on your 
success rate?
    Reverend Smith. As I stated, right now we are----
    Mr. Gilman. Could you put the microphone a little closer, 
please?
    Reverend Smith. As I commented earlier, from Group 
Ministries Baltimore, right now we are doing it more 
educational forums at this point, but I will provide the 
committee with statistics from Group Ministries Buffalo, which 
would have those.
    Mr. Gilman. What do you estimate to be your success rate?
    Reverend Smith. I would estimate, of what we have done in 
the last year, I would say it's somewhere around 55 percent.
    Mr. Gilman. That seems like----
    Reverend Smith. And in terms of followup, we do follow 
individuals, you know, everywhere.
    Mr. Gilman. Yes.
    Reverend Smith. If they go into another modality, if we see 
them on the streets, or what have you, we followup.
    Mr. Gilman. That sounds like a pretty accurate estimate.
    Mr. Castellani, what's your success rate?
    Mr. Castellani. We've had three studies of those who have 
graduated the program, and so far the three studies have been 
between 70 and 85 percent of those who have not gone back to 
drugs. And the last study was done--I'm guessing--3 or 4 years 
ago, and this was 3 years after graduation. And the other part 
of that study I mentioned earlier was 90 percent are full-time 
employed.
    Mr. Gilman. To what extent do you do your followup? How 
many years after they graduate from your program?
    Mr. Castellani. Well, to be candid, it is very difficult to 
followup on graduates because many of our graduates--many of 
our students come to us from living under a bridge, under a 
cardboard box or something, and so when they leave, thank 
goodness, many of them do go back to their families, but 
because they've been out of the work circulation for a while, 
not only the time they were in the program but long prior, they 
make two or three moves within a year or more before they 
settle in and get a decent-paying job.
    And we do our best. We do have an alumni. We do our best to 
keep up with it, but it is like all of us, when we get our mail 
we separate it and some goes into file 13 and some we keep, and 
so I wish I could say we have 100 percent of our students who 
report on a regular basis, but I can't say that, but there is 
accountability, though. When you go across our churches--and 
I'm talking churches everywhere. I go into churches, all kinds 
of churches every Sunday. I'll go into a Methodist church and 
they'll come up to me--whatever the church name may be, they're 
out there.
    I wish I could say, yes, that we can make them be 
accountable, but we haven't been able to do that.
    Mr. Gilman. Ms. Trollinger, how do you account for the fact 
that the average seems to be 50 to 60, maybe 70 percent, and 
you have a 95 percent success rate? How do you account for 
that, and how----
    Ms. Trollinger. I count----
    Mr. Gilman. How many years after graduation do you 
followup?
    Ms. Trollinger. We continue after graduation.
    These men who have just been sharing work with, most of 
them, with over 18. We work between 12 and 18-year-olds, and 
they are brought there by their parents or by a guardian, and 
when the guardian has to sign a paper that they will come to 
parenting classes, or the parent, they have to come to 
counseling every week--our whole thrust is getting the family 
reconciled. Parents don't know how to be good parents. Their 
parents didn't know how to train them. But we teach them and 
the buck stops at House of Hope. And we continue checking on 
the parents after they leave the program.
    So we have--our program is unique because we catch the 
young people in time before they've gotten out on the street 
and gotten in jails and so forth, gotten in several marriages, 
and it's a lot tougher after they get there. And that's why the 
emphasis now is on--the No. 1 problem across America is the 
teenager and the family, and that's what we're working on. It's 
a lot more accountability and easier to measure the statistics.
    Mr. Gilman. I was asking--Mr. Sanders, I was asking what 
the average success rate was. Could you tell us what your 
success rate is in treatment?
    Reverend Sanders. I can--we have the documentation. I can 
get it back to the committee.
    Mr. Gilman. Just if you could estimate it.
    Reverend Sanders. My estimate would be about three out of 
five.
    Mr. Gilman. Three out of five?
    Reverend Sanders. Right.
    Mr. Gilman. And how far--how many years after graduation do 
you do your followup?
    Reverend Sanders. At least 3 or 4 years, but we have only 
been in--and that's as far as we can go.
    Mr. Gilman. Right.
    Reverend Sanders. We started this in the church prior to 
opening our center in 1998. We actually started in about 1996 
or 1997. We began with an in-house support group, and then with 
Fairbanks providing workshops and seminars and training for 
recovering addicts and others who wanted to assist us in 
becoming a part of this great ministry.
    Mr. Gilman. One last question, Mr. Chairman. Do any of your 
programs include alcoholics?
    Ms. Trollinger. Yes.
    Reverend Sanders. Alcohol is the No. 1 drug because it is 
legal.
    [All witnesses respond in the affirmative.]
    Mr. Gilman. You're all shaking your head that you all 
include alcoholism?
    [All witnesses respond in the affirmative.]
    Mr. Gilman. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    I know a few of us have some additional questions, and I 
want to make a couple of comments.
    Accountability, as you can tell, is of major interest to 
Congress in trying to figure out how to do this, and, much like 
if I can make an editorial comment on the education bill we're 
talking through, the stupidity of national testing is 
illustrated in the difficulty of accountability here because 
anybody who goes into any high-risk area, as we just heard, 
knows there is an incredible mobility, and in the education 
test we're going to hold a school accountable when in the next 
year 70 percent of those kids may not be at that school, and 
therefore that school is going to be punished when the kids may 
not be there.
    Part of our problem here is that in accountability this is 
a difficult problem when people are moving around, and yet, at 
the same time, if we are going to ask for taxpayer money we are 
trying to figure out how to get this, and we are going to need 
to look, and any of you who have some suggestions that you want 
to reflect on and get back to us in a week or so of how we can 
improve accountability and what kind of auditing we can do that 
doesn't put undue paperwork pressure, which leads to my second 
comment.
    I have a concern, as do many others in this, that the 
people who are most effective in the street aren't the pencil-
pushers, and the people who are the Beltway Bandits who know 
how to do the forms are not necessarily the people who are most 
effective in the street, and that's our dilemma here, which is: 
how do we get money to people who are effective, and at the 
same time have the accountability that the taxpayers want and 
not turn all of you into a bunch of bureaucrats, which is what 
part of our problem was in the first place? And we are 
wrestling with that question. Any suggestions you have on that 
matter would be helpful.
    Another problem that we are clearly dealing with is how to 
deal with the problem of choice in America and the fact that 
some orthodox Jews want to only go to an orthodox Jewish place, 
some Muslims only want to go to a Muslim place. Some Christians 
only want to go to a Christian place. And most Americans want 
to go to a place that includes everybody. But should we say 
that unless it includes everybody you can't be eligible for a 
program? That's one of our dilemmas here--not in who can come 
in the door, but whether a different ministry can, in fact, 
because of its Christian nature, have an impact, because of a 
Muslim nature have an impact because the Muslim on the street 
have a tremendous code of discipline that they demand in the 
program, much like a fundamentalist Christian would. Other 
faiths have different approaches. And should they be allowed to 
co-exist, or do we all have to do it one way, the Government 
way? That's one of the dilemmas we are battling here, and it is 
going to be the big stumbling block that may mean that the 
charitable choice program does not go ahead. It is our biggest 
stumbling block in Congress to try to address this question, 
because it's very awkward to say, ``Yes, I wouldn't hire 
somebody who doesn't share my faith,`` yet, if it is a faith-
based program and you change your faith it is difficult.
    Now, if you define yourself as ``we're inclusive,`` and you 
have a different approach, which leads me to one last thing--
and if you want to comment on it--well, let me mention one 
other thing I want you to followup with, and we'll put this in 
writing, too. One other thing I want to say is: what technical 
assistance could you use if you had more resources? And maybe 
we can answer that here. But I also want you to reflect on this 
question, and that is: we've heard a lot about the licensing 
question, and fundamentally I share a lot of that and I believe 
we have to work this through, but I can't--I have no other 
answer to this question. I agree with you if it is a surgeon 
and it is something that is purely physical, I want to know 
that they have faith and the training. But if it is 
psychological, it's a little bit different ball game, and even 
in some medical it matters.
    I had a Native American, the head of the Utes when I was a 
staffer, who told me that he believes some Government funds 
should be used for Medicine Men, and I didn't necessarily agree 
with that, and he said, ``You know, one-third of your people 
who enter the hospital come out sicker than they go in.'' 
That's in the New England Journal of Medicine. And he said 
that, ``In the Indian nations we believe that a lot of medicine 
is psychological, not just physical, and who are you to tell us 
how to do it?''
    Tough questions. The more hard science there is, the more 
clearly you want the double training. But the fact is that I've 
been in Freddie Garcia's program in San Antonio, and these men 
are street former addicts who have not had formal training. 
They don't pretend to be a drug treatment program and they 
wouldn't be eligible under our programs. That's partly why they 
are not here today. But I have personally met 250 former crack, 
heroin, marijuana, and alcohol addicts who have changed, and 
they've changed because of counselors who didn't have a 
license.
    Now, like I say, they won't be eligible under this program 
because we are going to have more criteria and all they do is 
Bible study.
    And, furthermore, I've personally talk to at least 50 of 
those after having been up at Johns Hopkins crack cocaine 
center, where they told me you could not go cold turkey, with 
people who went cold turkey and are still clean 15 years later.
    We should never deny that the power of faith can do it, 
but, as Freddie would say--and I'm sure any program that 
doesn't have the same licensing as a Federal program would 
say--``It's not for everybody,'' and many people need a lot 
more, and somehow we've got to figure out how to have the 
diagnosis if it is a Federal program that isn't just faith, and 
at the same time don't rule out that many people, through the 
power of faith, whether it is the Native Americans or whether 
it is Christians today, that faith can overcome a lot of other 
kinds of healings, and that's a huge dilemma for us to work 
through.
    Do any one of you want to comment?
    Reverend Sanders. A couple of things I'd like to respond 
to.
    First of all, I'd like to say I think it would be an insult 
to faith-based groups if we didn't agree with what Reverend 
Smith has said again and again--that we should be held to the 
same high standard of accountability as any other organization 
receiving assistance from the Government.
    And regarding discriminating on the basis of belief 
systems, my view is I know enough about Islam to know that the 
word means one who is in submission to God, and the word Allah 
means all-in-all, so anyone who sees--there's only one true, 
living God. If a man embraces that one God as his all-in-all, 
and if a man is living his life in submission to the will of 
his Creator, he is my brother. So I don't have a problem with 
that because I think the word ``faith'' is universal, you know, 
so I just don't have a problem with the belief system that an 
individual embraces, as long as it has to do with that one 
true, living God.
    Mr. Souder. Anybody else have any comments?
    Reverend Smith. Yes. One of the things that Group 
Ministries did was that we received one of our first grants 
from the Centers for Disease Control, and we went to the AIDS 
Administration and we said, ``We want your evaluators to come 
in and to help us to set up an evaluation piece,'' because one 
of the things I do realize is that if you don't help to set up 
the parameters, then somebody else will. And now they use us as 
a model, and they talk about Group Ministries came to us.
    And so what I'm saying is that that has to be. It goes back 
to what I said before. It's a marriage. It is not going to be 
happy all the time. It's not going to be sad all the time. But 
it's something that needs to be worked through because it has 
to take place, you know, because the accountability has to be 
there. You know what I mean? The certification to understand 
how people function with different illnesses. You know what I 
mean? I was a heroin addict, and there was a lot of other 
things going on with me besides the drugs. And, you know, drugs 
wasn't my problem, but there was a lot of other things that 
were going on that, had not they been addressed--and what I'm 
proposing is that, the marriage.
    So, in terms of technical assistance, is that there be 
moneys supplied to be able to start to test those, to start to, 
you know, do some test programs, to--monies so that it can be--
that programs like Group Ministries or other programs who are 
willing to step up to the plate like we are and saying, ``I'm 
not afraid of you coming in,'' because one of the things is 
inviting people in has helped us to be, one, a stronger 
program, and, two, if faith-based gets all of this just not 
have to do the accreditation or whatever, what about the 
program across the street who has to go through all of those 
types of--you know what I mean--restraints? You know, it's 
certainly not going to give them any incentives to really prove 
themselves.
    And I believe that we are strong enough to be able to 
battle through whatever--I'll call them ``logistics,'' for lack 
of a better word, but to be able to battle through whatever the 
problems would be in that marriage because it has to come 
together. If we are going to treat folks in a holistic way, it 
has to come together, the marriage between behavioralists and 
the faith, it has to be a marriage.
    Mr. Souder. Mr. Castellani.
    Mr. Castellani. We're licensed in Pennsylvania, so that's 
not a real big issue. The real big issue is in our licensing, 
because we are faith-based, we can't get financed. And that's 
not an issue, either, because we are not in it for the money.
    Really, I don't know if we really should be supported by 
Government or anything 100 percent. I really--I think that if 
you take faith out of who we are and what we do, when it comes 
down to fundraising I think you may spoil us, ruin us. I'm 
just, you know, I'm just being objective here.
    I think there needs to be a help. I think we need to come 
alongside, just like we need to come alongside Government.
    And really my feeling is that a person should be fed, 
clothed, sheltered, and medicated, whatever his medical needs 
are, and if those items are taken care of, how we implement 
everything we do I don't think is as big an issue, as long as 
we are doing it right and providing help for this man.
    So I think the man, lady, boy, girl, I think their needs 
need to be taken care of, and whether we--we've discussed this 
much, and I really feel that we want to be there, we want to 
help, and we're going to do what we have been doing for the 
next 40 years, God willing, as long as people continue to 
believe in us and support us.
    Thank you.
    Mr. Souder. Thank you.
    I still remain--while I believe licensing is an important 
function, the fact is I'm more concerned about outcomes than 
the license, and that we have not seen evidence that the two 
are correlated, and that's one. But we don't have convincing 
evidence that they aren't, and that's one of the reasons we 
need to know how to monitor.
    And I would argue different people need different things, 
and what we ought to be doing is measuring outcomes, not 
process, and that too often Government is process oriented 
rather than measuring what actually is working at the 
grassroots.
    I need to go to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I was very--it's very interesting, your comments. I agree 
with you. And this--you basically summarized why it is that I 
think this whole faith-based initiative is in trouble. And I 
want the witnesses, you know, to--I want, first of all, for you 
to understand that we really do appreciate what you are saying 
and we appreciate your candor. As a matter of fact, out of all 
the hearings that I have been involved in, this has been 
probably one of the best hearings that, as far as the witnesses 
are concerned, to bring out the problems that we face, and it 
is really you all just telling what you know, and I appreciate 
that.
    Let me just give you some very brief comments so that you 
can understand the significance of the problems.
    In Baltimore we had a lot of problems in our public housing 
projects, and we, the city of Baltimore, hired an agency which 
was connected with the Muslims, Lewis Farakhan, Minister 
Farakhan, when using Government funds to basically guard these 
public housing projects without any weapons. They were the most 
effective group that has ever guarded the public housing 
projects. They were well-respected, and, as a matter of fact, 
people loved them, but they were just well-respected and they 
got the job done.
    And I'm here to tell you that there were segments of the 
Baltimore community that, although they cut down drugs, 
murders, everything, there were segments of the Baltimore 
community that said, because they were associated with the 
Muslims and Lewis Farakhan, they had to go. They didn't want 
their Federal moneys going into that organization in any kind 
of way.
    And in my District we have a substantial number of Jewish 
people. They were offended. In my District--by the way, I also 
have a substantial number of Buddhists, which is a little--I 
don't know how much you all know about the Buddhist faith, but 
it is a little different than what we--than what you all 
believe in.
    And Pastor Sanders, you know, I know what you mean when you 
say, you know, the Higher Power, but not everybody feels that 
way, and that's the problem that we run into. We've got people 
who are saying that, ``I don't want to pay into a system that 
will discriminate against my daughter if she goes to one of 
your organizations, you know.'' I'm Jewish, and if my daughter, 
who is a good young lady who has gone to college, who has done 
well, and she is interested and maybe you're the only 
organization in town and this is what she wants to do, and she 
goes to you and says--first thing she says is, ``I am Janice 
Shapiro and I want to be hired,`` they don't want--they hate 
the idea that their tax dollars--see, that's the key--could be 
used in a way to make it so that her daughter can't be hired. 
That's the problem.
    And I think that most Americans would probably feel the 
same way. And so we face this situation where, while we are the 
great melting pot and that is so wonderful, it also helps to 
create the dilemma that we find ourselves in with regard to 
faith-based organizations.
    One of the things that concerns me, too, is that--and we 
need to keep this in mind--and going to some of the things that 
you said, Reverend Smith, you know, one of the things that 
we've noticed in the Congress and we spend a lot of our time 
dealing with is people who try to find their way around the 
system. You know, I mean, we look at fraud, Medicare fraud. 
It's horrible. I forgot the millions upon millions of dollars, 
billions, in Medicare fraud. People have found a way to get 
around.
    And so one of the reasons why I guess accountability is so 
significant is because the American public wants two things 
with regard to their tax dollars, and I think you will find 
that the comments that I'm making, the next sentence I say, I 
think you will find agreement with every--with 435 Members of 
the Congress and 100 Members of the Senate. It's the one thing 
we do agree on, and that is that the American's tax dollars 
must be spent effectively and efficiently. Those two things 
you'll get no problem. We all agree.
    So it is not--and it is not a question--and I mean this--it 
is not a question of whether faith-based works. That's not the 
question. But I'll tell you another thing that is happening. We 
have spent a lot of time in this committee, not this year but 
in past terms, dealing with the question of whether we should 
have standards and how do we measure effectiveness. You know 
why? Because we are worried about a lot of people who set up 
shop--not you all--who set up shop to get the money but don't 
deliver the service.
    And what happens is that's a disservice not only to every 
single taxpayer of this country, but guess who else it is a 
disservice to--it's a disservice to the person who comes in 
there for treatment and doesn't get it, and in a way it would 
probably have been better off if he had never even gone to try 
because he comes out--because I know a lot of these people--
they come out feeling angry that they took the time. And you 
all know the theory that you've got to catch somebody when they 
are most ready to be treated. So they go and they say, ``OK, 
maybe someone like you. I'm ready to be treated. I'm tired of 
this life. I'm ready to get in here and do it,'' and they go 
in, and then there is a sham, and so when they come out they're 
angry. And the fact is that not only are they angry, but they 
are less apt, I think, to go back. So we have not helped the 
problem.
    And so I take this moment simply to summarize all that so 
that you understand. You know, I don't want you to feel in any 
way--say well, you know, when the Congressmen and Congresswoman 
said something, it sounds like, well, maybe they disagree with 
me, or whatever. It's not about that. All we're trying to do is 
get to the best policy. You know, whatever the truth is, that's 
what we want, so that we can move from here to say, ``OK, we 
see--'' you mentioned it, Pastor Sanders, about, you know, if 
you're going to have a faith-based thing, and you talked about 
the front porch initiative, you talked about--you helped me to 
answer one of my questions. Well, maybe there is a way that you 
can have some kind of technical assistance to help to make sure 
that things are done right. That's a big concern of mine. I 
don't want my pastor going to jail. I don't want him indicted. 
I don't. He's got about 7,000 parishioners. I mean, that would 
be a shame, you know, your pastor sitting in jail over 
something that maybe he just didn't know.
    So all I'm saying to you is that these are--you have helped 
us tremendously, and I want to thank you, Mr. Chairman, for 
your kindness in letting me go a little bit over, but I really 
do want you to understand that you have helped to bring out the 
situation that we face, and nobody--and there's nobody up here 
that is going to knock you for saying that, well, if they 
don't--if they're not about faith, we're not going to hire 
them. We're not knocking it, but what we are concerned about is 
that if our tax dollars are being used to promote the 
discrimination, that's a problem. That's a major, major 
problem.
    And so I hope that I have put it in--I mean, if you all 
want to comment briefly on what I've said I'd appreciate it, 
but if you don't, that's fine.
    Ms. Trollinger. I'd like to make a comment. The tax dollars 
going for discrimination, but if you look at the results and 
you measure all the results that you will be able to get in, 
you'll see that it is when Jesus Christ is lifted up, he's the 
one that has the power that changes things, and that's why we 
have a 95 percent success rate.
    Mr. Cummings. And I agree with that, but just one quick 
comment, Mr. Chairman. One of the things that I guess that I 
have always been concerned about is when we make policy based 
upon emergency. In other words, when we change policy to 
address a situation, and then after the situation is gone, is 
passed by, you still have the policy in place.
    In other words, I think that a lot of times when we look at 
the crime situation we have a tendency, because we want to get 
rid of crime so fast, we have a tendency to make laws that may 
just be on the edge of unconstitutionality so that we can get 
to the problem. But what happens when all of that is over?
    I guess what I'm saying is we have something called the 
Constitution of the United States of America, and that 
Constitution, this Congress has constantly tried to breathe 
life into that document and make sure that it is sustained, it 
has been sustained over many, many, many, many years, and I 
guess that's what we always have to fall back on.
    Our problem is, if you want to call it that, is every 2 
years we put our hand up and say we're going to uphold this 
thing called the Constitution of the United States. People can 
disagree on what it means, but it is our duty to uphold it. No 
matter what the good may be, you know, we still have to--no 
matter what the end, how great the end may be, there's still a 
certain means test that we have to go through to get there, 
whether we like it or not.
    Mr. Castellani. I'd just like to say I agree with you, and 
I respect your position and all the position of the Government, 
I mean, because I'm a first-generation this country. My father 
was an immigrant and went to third grade. He told me to get an 
education, and I wish I had gotten more, I wish I took his 
advice more, and I really appreciate and respect what's going 
on.
    My problem--it's not a problem. The question is: are we 
only going to support secular humanism, or can we support 
secular humanism and can we support the faith-based under the 
same umbrella? That's my question. And I don't know how--I 
don't know the answer.
    Thank you.
    Mr. Souder. Mr. Davis, do you have any further comments or 
questions?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I think one of the things that we have to do is try and 
reach an accord, and I think that's what this whole process is 
really about, and that's what democracy also, I believe, is 
about.
    See, I happen to believe that my rights end where the next 
person's rights begin, and that all of those rights ought to be 
protected, and so I want to thank each one of you for coming 
and for giving your testimony, and I was very pleased to hear 
what you have to say, but I must confess that I was even more 
pleased, Mr. Chairman, to hear what you had to say in terms of 
the concern in relationship to choice, because I really want to 
be able ultimately to support this initiative, because I think 
that there are things that can happen that won't happen any 
other way. I mean, I've spent most of my life dealing with 
poverty, depravation, and disadvantagement first-hand, and I've 
never been any place yet where there was enough effort put 
forth to find solutions and deal with the problems as they 
existed.
    I think, for example, in many instances faith-based 
activities have the ability to generate a level of 
participation in terms of the numbers of people who are willing 
to come and volunteer or voluntarily give of themselves, who 
won't do it through any other initiative but will do it through 
a spiritually based or church-based or religious-based 
activity.
    I hope that we can get to the point where individuals can 
all see each other contributing in one way, shape, form, or 
fashion, so that maybe legislation could be shaped that it 
does, in fact, provide the accountability vehicles; that it 
does, in fact, prevent the opportunity to discriminate; that it 
does, in fact, provide the opportunity to draw people more 
closely together in their thinking; and that it does provide 
the opportunity to make use of something that people can feel 
but always can't necessarily touch, can't always necessarily 
grab.
    I agree with the licensing in terms of I don't want to see 
a person who took psychology 101 get to thinking that they can 
now operate like a psychiatrist just because they have got 
faith. But also, as a trained behavior scientist, I think that 
when you can add another dimension to what it is that you are 
observing, what it is you are trying to see, and what it is 
that you are trying to convey, that there is another level of 
connectedness that you might be able to reach with individuals.
    I also take the position that there is nothing more 
threatening to this country than the use of habit-forming 
drugs, that there is nothing. There are some communities where 
the level of participation is so high until it is unbelievable, 
crack and blow, you know, a rock and a mock. I mean, it is 
debilitating in many instances to the whole community, the 
whole neighborhood.
    And so, Mr. Chairman, if we can shape this in such a way 
that it can provide the guarantees and safeguards so that a 
person of Jewish descent doesn't have to worry about there 
being any instances where he or she may be denied some 
opportunities because they are Jewish, or a person who is 
Buddhist can know that, just because I am Buddhist, that 
doesn't mean that I can't be effective in doing something that 
I want to do, know how to do, and want to help do, and want to 
help make it happen.
    The separation of church and State is uppermost in the 
minds of some people, but I also notice that when we look at 
the currency that it says, ``In God we trust.'' And I don't 
know how you can separate too much of that in terms of what 
this country in many ways was really founded upon, and that's 
the notion of religious freedom.
    I think if we can find a way to get some resources to 
people and not do anything to desecrate, diminish, or deny 
those freedoms, I'm certainly in favor of looking for it.
    And so I thank you, Mr. Chairman, for this hearing. I thank 
the witnesses for coming to share with us. And I really do hope 
in the end that we can find a way to enact legislation that 
will accomplish some of the goals, but also provide the 
necessary safeguards.
    So I thank you and yield back the balance of any time.
    Mr. Souder. Thank you. And I want to thank you all for 
coming. You've heard a lot of our dilemmas. We are facing a 
changing America. I represent northeast Indiana, the part of 
Indiana that nobody in Indianapolis thinks really exists 
because they're the big guys in the State, but even in a small 
school district of Vangola we have 22 languages now, and it is 
a small town in Indiana that they have one teacher now who 
speaks Farsi to try to deal with the Middle Eastern immigrants. 
In Fort Wayne we have become the center of dissident Burmese in 
the world--gone from 200 to 400 to 1,200 in a period of less 
than 36 months. All of a sudden, when we're looking at faith-
based organizations it is a different mix in even a place like 
Fort Wayne, IN, which is a very isolationist historically 
community. And we have to be very careful to figure out, as we 
deal with these Constitutional questions, how to do this.
    America is a very religious Nation. We attract people who 
have those values of different types. We were originally and 
still are rooted in Judeo-Christian teachings, but we are 
having much more diversity than we used to, and we have to 
figure out how our Constitution is going to accommodate this 
without undermining it. At the same time, for those of us who 
believe, as I do, that sin is a driving problem, and that, as 
we heard Mr. Frederick say, it is the inside, not just the 
outside, can we, without using Government dollars to 
proselytize, figure out a way that, you know, that the shelter, 
as you talked about, the roof isn't spiritual, the food that 
somebody eats is usually not spiritual, and in trying to figure 
out how those basic needs can be covered, and yet protect the 
religious diversity and the choices is our challenge.
    In addition, Mr. Cummings pointed out another of our 
challenges, and that is--which President Bush had in his 
proposal but which is not in the current proposal in front of 
us in Congress--is how to provide the skills necessary so that 
you don't get entangled in this process and we don't take the 
people off the street who are trying to do it.
    And the one other thing that is a danger of getting lost in 
this that I made one reference to--and your testimony all was 
very clear--and that was you don't just treat drug and alcohol 
addiction, that it is an enabler. It makes every problem worse. 
People who are hurting turn to it. But ultimately you have to 
figure out how to address their soul, but then also figure out 
how they are going to feed themselves, how are they not going 
to fall back into the very same problem that they had, and that 
somebody needs to stand beside them. All of your programs had a 
stand-beside-them component, not just a, ``This is 6 months, 
the insurance is out, goodbye.'' And we have to figure out how 
to address that, as well.
    With that, I thank Congressman Cummings and Congressman 
Davis, who are both very reflective and articulate people, and 
you could probably invite either of them to preach at your 
church any time. [Laughter.]
    With that, we stand adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
